<html>
<title> - WHY FOOD SECURITY MATTERS</title>
<body><pre>[Senate Hearing 115-823]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 115-823
 
                     WHY FOOD SECURITY MATTERS

=======================================================================

                                HEARING


                               BEFORE THE

                      SUBCOMMITTEE ON MULTILATERAL
                       INTERNATIONAL DEVELOPMENT,
                     MULTILATERAL INSTITUTIONS, AND
                    INTERNATIONAL ECONOMIC, ENERGY,
                        AND ENVIRONMENTAL POLICY


                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             SECOND SESSION



                               __________

                             MARCH 14, 2018

                               __________


       Printed for the use of the Committee on Foreign Relations
       
       
       
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
 
 


                   Available via the World Wide Web:
                         http://www.govinfo.gov                        
                         
                         
                         
                              ______                      


               U.S. GOVERNMENT PUBLISHING OFFICE 
 40-579 PDF              WASHINGTON : 2020 
                          


                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                ROBERT MENENDEZ, New Jersey
MARCO RUBIO, Florida                 BENJAMIN L. CARDIN, Maryland
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD YOUNG, Indiana                  CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey
                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        
                    



           SUBCOMMITTEE ON MULTILATERAL INTERNATIONAL        
            DEVELOPMENT, MULTILATERAL INSTITUTIONS,        
              AND INTERNATIONAL ECONOMIC, ENERGY,        
                    AND ENVIRONMENTAL POLICY     
                    

                 TODD YOUNG, Indiana, Chairman        
JEFF FLAKE, Arizona                  JEFF MERKLEY, Oregon
CORY GARDNER, Colorado               TOM UDALL, New Mexico
JOHN BARRASSO, Wyoming               CHRISTOPHER A. COONS, Delaware
ROB PORTMAN, Ohio                    EDWARD J. MARKEY, Massachusetts



                               (ii)          


                          C O N T E N T S

                            ----------                              
                                                                   Page

Young, Hon. Todd, U.S. Senator From Indiana......................     1

Merkley, Hon. Jeff, U.S. Senator From Oregon.....................     3

Beasley, Hon. David, Executive Director, World Food Programme, 
  Society Hill, SC...............................................     4
    Prepared Statement...........................................     7

Nims, Matthew, Acting Director, Office of Food for Peace, U.S. 
  Agency for International Development...........................    17
    Prepared Statement...........................................    19

Sova, Chase, Ph.D., Director of Public Policy and Research, World 
  Food Programme USA, Washington, DC.............................    29
    Prepared Statement...........................................    31

Castellaw, Lieutenant General (Retired) John, United States 
  Marine Corps, Crockett Mills, TN...............................    38
    Prepared Statement...........................................    39

Nunn, Michelle, President and Chief Executive Officer, CARE USA, 
  Atlanta, GA....................................................    43
    Prepared Statement...........................................    45

              Additional Material Submitted for the Record

Responses of The Honorable David Beasley to Questions Submitted 
  by Senator Todd Young..........................................    49
Responses of Mr. Matthew Nims to Questions Submitted by Senator 
  Todd Young.....................................................    51

                              (iii)        


                       WHY FOOD SECURITY MATTERS

                              ----------                              


                       WEDNESDAY, MARCH 14, 2018

                               U.S. Senate,
        Subcommittee on Multilateral International 
       Development, Multilateral Institutions, and 
 International Economic, Energy, And Environmental 
                                            Policy,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:34 p.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Todd Young, 
chairman of the subcommittee, presiding.
    Present: Senators Young [presiding], Merkley, and Coons.

             OPENING STATEMENT OF HON. TODD YOUNG, 
                   U.S. SENATOR FROM INDIANA

    Senator Young. Good afternoon. This hearing of the Senate 
Foreign Relations Subcommittee on Multilateral and 
International Development, Multilateral Institutions, and 
International Economic, Energy, and Environmental Policy will 
come to order.
    I want to thank the ranking member, Senator Merkley. I 
remain grateful for our bipartisan partnership on so many 
issues, Senator.
    The title for today's hearing is ``Why Food Security 
Matters.'' Today we have an impressive group of leaders, 
scholars, and experts joining us to discuss this important 
issue. We will divide today's hearing into three panels.
    The first panel consists of the Honorable David Beasley, 
Executive Director of the World Food Programme.
    Welcome, Director.
    Our second panel will consist of Mr. Matthew Nims, the 
Acting Director of the Office of Food for Peace at the United 
States Agency for International Development.
    And our third and final panel will consist of three 
witnesses: Dr. Chase Sova, the Director of Public Policy and 
Research at World Food Programme USA; Lieutenant General John 
Castellaw, who served with distinction in the United States 
Marine Corps; and Ms. Michelle Nunn, President and Chief 
Executive Officer of CARE USA.
    Given this excellent group of leaders and experts, I am 
eager to hear from each of you. But before we do so, allow me 
to make a few comments to frame and catalyze our discussion 
this afternoon.
    I will start with two important statistics. First, 
Executive Director Beasley, you note in your prepared statement 
that in 2016 the number of chronically hungry people in the 
world went up for the first time in a decade, reaching 815 
million people. You also note that 108 million people are 
acutely hungry.
    And second, in December 2017 the United Nations Office for 
the Coordination of Humanitarian Affairs launched its highest 
ever global appeal for $22.5 billion to support 2018 
humanitarian requirements.
    Now, these numbers are staggering. They are also 
heartbreaking. When we confront such horrible humanitarian 
suffering, most of us recognize a moral imperative to help 
wherever we can. I certainly do. As Mr. Nims wrote in his 
prepared statement for today's hearing: ``We provide food 
assistance because it eases human suffering and represents our 
core American values of compassion and generosity.'' You go on 
to say that ``helping feed those around the world in their time 
of need is the right thing to do.''
    I agree. But Mr. Nims does not stop there. He goes on to 
say that helping to feed the hungry around the world makes 
America and her allies safer. Executive Director Beasley, you 
concur, saying feeding hungry people contributes to the 
economic and national security interests of the United States.
    Lieutenant General Castellaw, you put it succinctly, saying 
that food crises grow terrorists.
    I find these assertions intuitively compelling, and there 
are many anecdotes and case studies that strongly suggest a 
correlation and even a causation between hunger and instability 
or hunger and conflict.
    But at this time of seemingly unlimited threats and 
challenges, anecdotes and suggestions are not enough to 
effectively help justify the allocation of finite resources for 
food security-related programs. We need to look at the 
evidence, and I believe a growing body of research, from the 
World Food Programme to the U.N. Development Program, the World 
Bank, the United Nations, and a number of individual scholars, 
conclusively demonstrates the connection between food 
insecurity and instability.
    Dr. Sova writes in his prepared remarks for today's hearing 
that, ``While we have long understood the relationship between 
hunger and instability to exist intuitively, research is now 
catching up.'' It is this relatively new research in particular 
that I look forward to exploring together today.
    Despite the risk of spoiling the ending, let me say up 
front where I stand. In addition to a clear moral imperative to 
fight hunger, I believe there is strong evidentiary and 
scholarly justification for concluding that it is in America's 
clear national security interests to address food insecurity, 
and I am not alone. A 2015 intelligence assessment by our 
Office of the Director of National Intelligence asserted a 
clear connection between food insecurity and social 
disruptions, or large-scale political instability.
    More recently, a joint study published this year by the 
World Bank and the United Nations entitled ``Pathways for 
Peace: Inclusive Approaches for Preventing Violence'' explored 
the consequences of food insecurity. And the report concluded: 
``Food insecurity can increase the risk of conflict, 
particularly when caused by rising food prices, by displacing 
populations, by exacerbating grievances, and by increasing 
competition for scarce food and water resources.''
    Now, these social disruptions and political instability 
foster, enable, and create security threats to Americans and to 
our national interests. And for those watching this hearing who 
may have a decidedly narrow and, I would argue, mistaken 
definition of American national security interests and who 
focus exclusively on so-called ``hard'' power, I encourage you 
to give our witnesses today a fair hearing. Listen to Executive 
Director Beasley. He is the former Republican Governor of South 
Carolina and he has visited 36 countries, by the latest count, 
as the head of the World Food Programme. Listen to Matt Nims. 
He spent his professional lifetime working on hunger-related 
issues. Listen to Dr. Sova's groundbreaking scholarly research. 
Listen to retired Marine Corps General John Castellaw, who 
spent decades serving our country in uniform and saw the 
consequences of food insecurity firsthand. And finally, listen 
to Michelle Nunn, who leads CARE, an organization that has 
worked to improve food security since 1945.
    I am very excited to hear from our witnesses, and I look 
forward to continuing our work together to fight global food 
insecurity because it is the right thing to do, and also 
because it is one of the best ways to proactively address 
threats to Americans and our national interests.
    So with those thoughts in mind, I would now like to call on 
Ranking Member Merkley for his opening remarks.
    Senator Merkley.

                STATEMENT OF HON. JEFF MERKLEY, 
                    U.S. SENATOR FROM OREGON

    Senator Merkley. Thank you very much, Senator Young. I do 
appreciate the bipartisan way that we are undertaking these 
issues. There is nothing about starvation in the world or human 
suffering that should ever be a partisan issue. I am very 
pleased that we have so much expertise being brought into this 
room.
    I am thinking about how perhaps food aid is not one of the 
sexier issues in international affairs. We do not see a room 
full of members right now. We do not see a line out the door. 
But in terms of the impact on lives around the world, there may 
be no more significant discussion than how we approach the 
issue of the United States supporting food aid.
    Never before have we experienced the number of simultaneous 
complex humanitarian emergencies around the world, 65 million 
people across the globe displaced, equivalent to the entire 
population of France. That includes more than 22 million 
refugees, 80 percent of whom live in just four countries: 
Lebanon, Ethiopia, Jordan, and Kenya. And half of the 815 
million people that you mentioned, Mr. Chairman, in the world 
who are facing hunger every day live in conflict zones and 
disproportionately are concentrated in Africa, and conflict has 
a big role in the challenge of nutrition.
    Last July, Chairman Young and I held a hearing in this 
committee to discuss the origins and policy prescriptions to 
combat famine in the four famine countries of Yemen, Somalia, 
South Sudan, and Nigeria. Today's hearing builds on that 
foundation, addressing the question of why food aid matters. 
Why does it matter? It is certainly a clear expression of the 
limitless compassion of the American people, and every food 
basket or voucher, be it a source from the United States or 
from a market close to the affected countries, is truly from 
the American people.
    We know that food-secure countries are less likely to 
suffer from national, regional, or international instability, 
as you so well summarized. And we have an additional 
complicating factor driving food insecurity, which is the 
impact of human-driven climate chaos. Record global 
temperatures and droughts are affecting the production in 
location after location, including hundreds of thousands of 
small-holder farms spread around the world.
    Food aid offers a critical lifeline to those who are caught 
in the crosshairs of armed violence, including civil war, and 
the critical lesson we have learned is that the most effective 
and efficient response to a famine is to prevent one from 
occurring in the first place. So we have to focus both on 
addressing famines and working to prevent them. Both are 
important pieces.
    Regrettably, during this period when complex humanitarian 
emergencies are on the rise, President Trump's Fiscal Year 2019 
budget proposes a reduction by one-half in the Title 2 Food for 
Peace Program, and a significant reduction in the International 
Disaster Assistance Program.
    So I think it is important for us to hold this hearing at 
this time to ask and answer the question that is being posed so 
that the Article 1 branch of the government can proceed to 
weigh in, and that is where your expertise addressing this body 
is so valued. Thank you for joining us.
    Senator Young. Thank you, Ranking Member Merkley.
    I want to once again welcome Executive Director David 
Beasley.
    In order to keep the lawyers happy, and in light of your 
affiliation with the United Nations, I want to emphasize that 
you are appearing voluntarily today before the subcommittee as 
a courtesy, so thank you.
    Your full written statement will, of course, be included in 
the record. I welcome you to summarize your written statement 
in about 5 minutes, sir.

STATEMENT OF HON. DAVID BEASLEY, EXECUTIVE DIRECTOR, WORLD FOOD 
                  PROGRAMME, SOCIETY HILL, SC

    Mr. Beasley. Senator, thank you very much. Mr. Chairman and 
Senator Merkley, thank you very much. It is good to be here. 
For the record, I am here voluntarily and should not be 
understood to be a waiver, express or implied, of the 
privileges of the immunities of the United Nations and its 
officials under the 1946 Convention on the Privileges and 
Immunities of the U.N.
    Now that we have that technically and legally out of the 
way, Senator, you are right, I have been here almost a year, 
and what I have learned in this year of having traveled to over 
36 countries, and many of those countries multiple times, has 
been not just eye-opening, it has been quite shocking to see 
the realities of what we are facing compared to 30 or 40 years 
ago.
    We are facing the worst humanitarian crisis since the 
creation of the United Nations, since World War II. But the 
crisis that we are now facing is different. When the World Food 
Programme was created, it was about natural disasters and 
earthquakes and very select type wars. But today it is a whole 
different ballgame. It is no longer just tsunamis and 
earthquakes and hurricanes and climate-impacted disasters, but 
it is also protracted wars and conflicts, 19 protracted areas 
of conflict; and, as Senator Merkley said, 80 to 82 percent of 
our expenditures now are in war zones.
    It is a different ballgame, and it is not just war zones. 
It is war zones with extremism--ISIS, al-Shabab, Boko Haram, 
al-Qaeda. It is a whole different issue, because migration 
today out of these war zones brings about extremism.
    If you would allow me to sort of cut through, I would 
really like to get down to what I think is the most serious 
issue of what we are facing: funding, of course. Yes, we need 
more funds. That is obvious, because we are facing so many 
crises. Why is this in the national interests of the United 
States, the security interest of America? Why is it in the 
national security interests of the European community?
    This was the question that I posed to the Europeans at the 
Munich Security Conference just a couple of weeks ago. I said 
if you think you had a problem with the migration of a few 
million people out of a nation the size of Syria, a nation of 
20 million people, you just wait until the Greater Sahel of 500 
million people start heading your way.
    I say that because of the reality of what we see on the 
ground. It is not just crises like we had before. It is a whole 
different ballgame. And if we do not get ahead of the curve, it 
will cost 10 to 100 times more, we know now, because of the 
failure to do the things that we needed to do in the past to 
provide the sustainable development to bring about the 
resilience that is needed in communities.
    It is costing the global economy just last year alone 12 
percent of the GDP. Fourteen trillion was the impact of global 
conflict. And to think that only the World Food Programme 
needed about $18 billion.
    So let us discuss a little bit of the reality of what we 
are facing, like in Syria, failure to get ahead of the curve, 
so to speak, 6 million people that we are feeding on any given 
day inside Syria, another 5 to 6 million that we are feeding on 
any given day outside of Syria. And because of the support of 
countries like the United States, it leads the world last year 
alone, because there were a lot of people around the world 
concerned that the United States would back down off its 
commitment in leading and providing international aid. But what 
I can say very proudly to leaders all over the world, the 
United States, Republicans and Democrats coming together 
clearly said to the world that we will continue to lead and we 
will provide the support necessary. And because of that, it is 
making a difference.
    But when we do not work together strategically, we have the 
consequences and the fallout of places like Syria. What we do 
know based on our surveys and studies in Syria, for example--
and this is typical of any other country in conflict today--for 
every 1 percent increase there is in hunger, there is a 2 
percent increase in migration. And when we feed a Syrian in 
Syria, it is 50 cents a day, and that is almost twice what it 
would normally cost, but it is a war zone. The cost of feeding 
a Syrian in Berlin is 50 Euros a day, and the Syrian does not 
want to be in Berlin. They will actually move three or four 
times inside Syria before they will actually leave their 
country, because they want to stay home. People do not want to 
migrate.
    But the complication now is that when there is migration, 
there is also infiltration by ISIS or al-Qaeda, Boko Haram or 
al-Shabab. So now that ISIS has been moved out of Syria, well, 
guess where they are going? They are going to one of the most 
fragile areas in the world, in the Sahel, the Greater Sahel 
region, and now they are partnering. We know. We see this on 
the ground every day. When you feed 80 to 82 million people on 
any given day, you hear a lot and see a lot.
    We are the world's experts on what is taking place out 
there, and ISIS is cutting deals, partnerships with Boko Haram 
and al-Shabab and al-Qaeda and ISIS all throughout the Greater 
Sahel region, with the purpose of infiltration for 
destabilization, taking advantage of corrupt governments, 
mismanaged governments, droughts, climate change, very fragile 
communities, with the hopes that through this destabilization 
there will be mass migration into Europe so there can be 
further chaos.
    But while I will say that, let me also add that I am now 
very, very concerned about what is happening in Latin America 
and South America. Two days ago I was on the ground at the 
border of Venezuela and Colombia. It was heartbreaking to see 
what is taking place. What we are experiencing with the 
possibilities of the Greater Sahel are very well possibilities 
that could happen in the Western Hemisphere. Eighty percent of 
the people are food insecure in Venezuela. Fifty thousand 
people per day are crossing the border, just in Cucuta, per 
day. Over 4 million people have already left Venezuela in the 
last few years, 1 million this past year; 660,000 stayed inside 
Colombia.
    The migration today is interesting because about 50,000 in 
Cucuta, probably 100,000 across the border of 2,200 kilometers, 
50,000 will come across and about 90 percent will go back. But 
they are running out of food. It is not a money issue anymore. 
There is no food. So there is going to be a tipping point where 
the 50,000, the 100,000 that cross per day--sadly, the stories 
of prostitution of little girls and little boys, and men and 
young boys are signing up with the extremist groups, illegal 
armed groups, and the extremists of the right wing are trying 
to take advantage of this to try to destabilize Colombia, a 
nation that is doing its best to be a tremendous host 
community.
    But if those 100,000 per day no longer start going back, 
you will see the serious potential of destabilizing the entire 
South American continent, and the implications for the United 
States and its neighbors to the north could be tragic. This is 
why I am so proud to see Republicans and Democrats, who might 
have differences on what the immigration policies should be, 
but to see them coming together to realize if we can address 
the root cause of the problems, then people will not want to 
move, and when they do, it is for all the right reasons.
    Now, Senator, there is a lot I could add. I know we will 
answer some questions about some of the things that we are 
doing that will make a difference. It is not just about 
humanitarian dollars, how do we use every humanitarian dollar 
for a development opportunity. What can we do to change the 
course of time? What can we do to change the direction so that 
more nations work together and we have less silos? And how can 
the U.N. be more effective, and how can the United States 
Government be more effective working in conjunction with 
Germany, the U.K., Canada and other nations around the world? 
Because when we partner together in a cohesive way and 
collaborate together, we can solve anything on the face of the 
planet.
    So, yes, we are going in the wrong direction. But I do 
believe if we get our act together and get to the root cause of 
these problems, we will save our children in such a way that 
there will be a brighter future.
    Senator, Mr. Chairman, thank you. It is good to be here, 
and I will answer any questions.
    [The prepared statement of Mr. Beasley follows:]

                  Prepared Statement of David Beasley

                              introduction
    Chairman Young, Ranking Member Merkley, members of the Senate 
Foreign Relations Subcommittee on Multilateral International 
Development, Multilateral Institutions, and International Economic, 
Energy and Environmental Policy, thank you for convening this hearing 
on ``Why Food Security Matters.''
    This is a truly important topic and I commend the bipartisan 
efforts of this committee and its able staff to explore the issue of 
how feeding hungry people contributes to the economic and national 
security interests of the United States.
    Today, I will provide a briefing relevant to this topic, on the 
World Food Program's efforts to bring peace and stability to troubled 
regions through not just short-term life-saving assistance, but also 
through a focus on long-term economic-development aid.
    This brief is being provided on a voluntary basis and should not be 
understood to be a waiver, express or implied, of the privileges and 
immunities of the United Nations and its officials under the 1946 
Convention on the Privileges and Immunities of the United Nations.
    I am about to hit my one-year anniversary as the Executive Director 
of the United Nations World Food Program, the world's leading 
humanitarian agency fighting hunger. Since I took office in April 2017, 
I've visited 36 countries. My travel falls into two basic categories: 
first, visits to donor countries to meet with leaders who help get us 
the funds we need to battle hunger and handle emergencies; and second, 
trips to where the real rubber meets the road--our operations that help 
feed 80 million people in 80 countries worldwide.
    What I see happening out in the field is what I want to talk to you 
about this afternoon.
    I've been to the four countries closest to famine: Yemen, South 
Sudan, northeast Nigeria and Somalia--all filled with hungry people 
because of man-made conflict. I've seen the wounds on the Rohingya 
refugees from Myanmar. I've talked to those fleeing fighting in Central 
African Republic, and people desperate to return to their small farms 
in Democratic Republic of the Congo. I've visited hard-to-reach, war-
torn areas of Syria and talked to Syrian refugees in Lebanon.
    The link between conflict and hunger is tragically strong. More 
conflict leads to more hunger. And it works the other way, too--
persistent hunger creates the kind of instability that leads to more 
conflict.
    Our fellow brothers and sisters pay the largest price for this 
repeating cycle. But nations, regions and continents do too.
    Hunger and conflict destabilize and destroy. The inability to feed 
your family can force good people to face impossible choices--horrible 
choices. With no other options to put food on the table, you may take 
on considerable risk and move somewhere else. Or even more horrible 
choices, such as trading sex for food. Arranging an early marriage for 
your daughter--even though she's still a child. Or joining a violent 
radical group. These are just a few of the extreme actions people may 
be forced to take when they have no other way to get food.
    Hunger and conflict combine forces to create fertile ground for 
extremist groups to do even more damage.
    We must do more to break this cycle. We must work together on a 
pro-active, strategic plan that creates stability and security. A plan 
that gives people hope that they can live and work and play in the 
place they truly call home.
    Last month, I spoke at the Munich Security Conference, the most 
prominent gathering of national defense and security experts in the 
world. Discussions I had at this conference reinforced my view that 
it's time to stop thinking that national security, or global stability, 
can be achieved without effective humanitarian assistance. 
Fundamentally, as long as there is severe hunger, the world cannot 
reach genuine stability and security.
    While security actors and humanitarians have different roles, their 
work is complementary. As German Defense Minister Ursula von der Leyen 
said in Munich, ``security and development, joined together, create 
lasting stability.''
    If we don't work together, the consequences are catastrophic. We'll 
have more hunger, we'll have more conflict, we'll see stronger 
extremist groups and forced migration will increase to numbers I 
believe we've never seen. And because of all this, I believe the United 
States and other leading powers will need to deploy their military 
forces at a greater rate and a much greater cost than they would have 
ever had to, if we'd just worked together more to achieve food 
security.
                         state of food security
    In 2016, the last year for which figures are available, the number 
of chronically hungry people in the world went up for the first time in 
a decade--to 815 million, from 777 million the year before.
    And 108 million people--up from 80 million the year before--are 
acutely hungry. These are people who need emergency assistance because 
they have no other way to get the food they need to stay alive.
    Conflict is to blame for nearly all this rise in hunger. Ten out of 
the 13 largest hunger crises in the world are conflict-driven and today 
fighting and violence drives over 80 percent of all humanitarian needs.
    In fact, some of the people I meet are more desperate for peace 
than they are for food. Just about every conflict-laden area I visit, 
the people we are feeding ask for help in creating peace.
    These conflict areas are home, unfortunately, to 60 percent of the 
food insecure people around the world. And the consequences of conflict 
and hunger are most severe on children. Hunger, malnutrition and poor 
health often lead to stunting--a phrase used to describe severely 
impaired growth in these young bodies. Three out of every four stunted 
children in the world lives in a conflict area.
                              instability
    This vast link between food insecurity and conflict contributes to 
other serious issues within these nations.
    As your colleague and my friend Senator Pat Roberts says: ``Show me 
a nation that cannot feed itself, and I'll show you a nation in 
chaos.''
    Broadly, as our affiliate WFP-USA reports in ``Winning the Peace: 
Hunger and Instability,'' research shows that food insecurity produces 
instability, and instability produces food insecurity.
    It's not surprising that just about every country near the bottom 
of the World Bank's Political Stability Index has a high degree of food 
insecurity and near-constant conflict within its borders.
    Yemen, Syria, South Sudan, Democratic Republic of the Congo, 
Central African Republic . . . the list goes on. They are all plagued 
by violence and home to millions of hungry people.
    The world spent $27 billion on humanitarian assistance in 2016--but 
almost half of it went to just four conflict-laden countries: Syria, 
Iraq, Yemen and South Sudan. Forty-four other countries got the rest. 
In some cases, what they received covered as little as five percent of 
the total need.
    Even small improvements in stability would make a difference for 
the humanitarian budget. For example, if the Somalia could improve just 
enough to be as stable as Kenya, WFP alone would save a total of $80.3 
million a year in food assistance costs.
    There are countries in sub-Saharan Africa, such as Ghana and 
Botswana where humanitarian assistance is zero. And, not surprisingly, 
those countries have no conflict and much lower food insecurity.
    If we are truly going to get to stability, we need peaceful 
resolution of conflicts. But at a very minimum, warring parties must 
commit to observe International Humanitarian Law, protect civilians and 
allow free-passage of humanitarian goods and services to reach those in 
need.
                       the threat from extremism
    The conditions that lead to instability are like fertilizer for 
violent extremism. Extremist groups are always looking for new foot 
soldiers and hunger makes their recruiting efforts far too easy.
    As the United Nations Development Programme said in a report last 
year, ``where there is injustice, deprivation and desperation, violent 
extremist ideologies present themselves as a challenge to the status 
quo and a form of escape.''
    Sometimes, it's even simpler than that. These extremist groups 
sometimes present themselves as the only way to survive. One woman in 
Syria told our researchers, ``The men had to join extremist groups to 
be able to feed us. It was the only option.''
    Perhaps the most prominent example of how a hunger crisis played 
into the hands of extremists came in 2011 in Somalia, where drought, a 
food price spike and civil war converged in a famine that killed a 
quarter of a million people.
    It has been documented by researchers that during this time, al-
Shabaab was keeping humanitarians from getting to hungry people and it 
was even offering money to enlist in its movement. One U.N. official 
called the famine ``a boon'' for al-Shabaab's recruitment efforts.
    The African people are paying the price of this extremism. 
Secretary of State Tillerson noted last week that terrorist attacks in 
Africa have risen; there were less than 300 in 2009, but in the last 3 
years there were more than 1,500 of them each year.
    It would be wrong to suggest that all--or even most--hungry people 
are violent or immediately given to violent extremism. But we have seen 
how hunger, marginalization, and frustration are capable of driving 
people--especially youth--into insurgencies and extremist 
organizations.
    The failure to meet the needs of these people serves to foster 
further frustration, increasing the pool of candidates who feel forced 
by need and desperation to join these movements, leading to increased 
food insecurity from violence and economic disruptions, completing the 
circle.
    People should not have to choose between feeding their family or 
resorting to violent extremism--we have the tools through food 
assistance to eliminate that awful choice. Food assistance through WFP 
and other U.S. partners can save lives and create the space and time 
necessary to arrive at political solutions that avoid or end these 
conflicts.
    It is also very important to note that the World Food Program is 
fully committed to humanitarian law and its principles. We do not take 
sides in conflicts; we feed the hungry and vulnerable wherever they 
are.
    But we are ``on'' the side of security and stability . . . of 
conditions that make it possible for people to feel safe . . . safe 
enough to know they can live with their families in peace and with 
enough food.
                           migration pressure
    Food insecurity and instability also clearly lead to more 
migration. Our own research shows that for each 1 percent increase in 
hunger, there is a 2 percent increase in migration.
    The refugees and asylum seekers are moving because they feel they 
have no choice. None of them really want to move. Nearly every single 
Syrian we talked to in our report, ``At the Root of Exodus'' said they 
wanted to go back to Syria if and when it was secure and stable at 
home. And the research shows that people displaced by violence in 
Syria, for example, will not move out of the country until they have 
moved at least three times inside the country.
    They want to stay home. Badly. Here's what one said: ``Lots of 
people would rather die in Syria than be a refugee somewhere else.''
    It doesn't surprise me: people want to stay with their families, 
with familiar surroundings, in the place they call home. Sometimes they 
will stay at great risk to their own personal safety.
    But sometimes there's a tipping point.
    When humanitarian assistance was cut in mid-2015 in Syria, asylum 
applications to Europe spiked from 10,000 a month to 60,000 a month. 
The risk of moving became lower than the risk of staying.
    We're seeing this kind of risk calculation now being made in 
Africa. The danger of crossing the Mediterranean is great, but so is 
the danger from conflict, hunger and extreme poverty--the established 
triggers of migration.
    Data from the United Nations High Commissioner for Refugees shows 
that in 2016, 730,000 people from Africa came to Europe as refugees or 
asylum seekers. That's more than double the 360,000 who came in 2010.
    Some of the largest increases came from countries in the Sahel or 
sub-Saharan Africa--Eritrea, Somalia, Nigeria and Gambia. Asylum 
seekers and refugees also came from other countries in dire straits--
the Democratic Republic of Congo and Sudan, for example.
    Much of the burden for migration does not actually fall on 
wealthier nations--86 percent of refugees worldwide are hosted by 
developing countries.
    When the refugees do move to places like Europe, though, it 
dramatically increases the cost of providing humanitarian assistance. 
For example, it costs about 50 cents per day to provide food to someone 
who is internally displaced within Syria--still one of the most 
expensive places for humanitarian assistance.
    But if that same person becomes a refugee in Germany, the German 
people spend 50 Euros per day on social support programs. It's not 
quite an apples-to-apples comparison because the German assistance 
includes more than just food, but the gap is so large that it is still 
a valid illustration of how much cheaper it would be if we can easily 
and effectively reach people where they want to be--their own homeland.
                          africa and the sahel
    Most of the countries in Africa, including those in the Sahel 
region, have abundant natural resources, plenty of arable land and 
young populations available to work.
    As Secretary Tillerson noted last week, by the year 2030, Africa 
will represent about one-quarter of the world's workforce. And the 
World Bank estimates that six of the ten fastest growing economies in 
the world this year will be African.
    But also present in Africa is government neglect and corruption, 
high amounts of food insecurity, near-constant conflict in some 
countries, climate-related challenges such as droughts, and in some 
cases, active violent ideological extremist groups.
    In the five countries at the core of the Sahel--Burkina Faso, Chad, 
Niger, Mali and Mauritania, acute malnutrition has risen 30 percent in 
the past 5 years.
    Because of these conditions, a toxic wind blows from the Red Sea to 
the Atlantic Ocean. And we've got to have a better, more targeted and 
effective strategy to deal with it. If we don't, the migration that 
could come would make the Syrian refugee crisis look like a picnic.
              the humanitarian-economic development nexus
    In some of these areas, food has become a weapon of war. Access to 
food is blocked, in part to subjugate other combatants. And in some 
cases, as I mentioned, it's become a recruitment tool for groups.
    But I believe food can be a weapon of peace. And it shouldn't be 
just food.
    What is needed is a properly funded, coordinated strategic plan--
one that involves work from other U.N. agencies, NGOs and national 
governments alike. It should be implemented over the long-term and 
grounded in international humanitarian law and principles.
    This work could ensure true stability in the Sahel and sub-Saharan 
Africa.
    True stability would mean having the conditions that help a family, 
a community, a region take care of itself. Of course, that starts with 
food. It has to, because nothing else can happen when everyone's 
hungry. But it also means schools and water and roads and governance 
and a dozen other things.
    Simply feeding people and handling emergencies just isn't enough 
for long-term success. I do not mean to discount those tasks. Food 
assistance is definitely the starting point for any long-term program, 
and without food assistance now, we would have several countries in 
famine right now.
    But the true task ahead requires more than saving lives, it 
requires changing them.
    A WFP program in Niger is already showing how this works. Since 
2014, we have been working with several partner organizations to help 
more than 250,000 in about 35 communes, or towns, with a multi-sector 
approach that builds resilience and stability.
    Among other family assistance aspects, the programs include:

  <bullet> Land regeneration and water harvesting

  <bullet> Working with women's groups to plant tree nurseries and 
        community gardens

  <bullet> School meals through community gardens

    Internal and external research show very positive results from this 
effort. Agriculture productivity in these communes has doubled and in 
some cases tripled. Because of increased land vegetation--up to as much 
as 80 percent in some areas--there is less invasion of animals onto 
agricultural lands. Those animal invasions onto someone else's farmland 
contribute to inter-communal violence, so that reduction is an 
important part of social cohesion. And finally, young men are migrating 
less, instead staying home to work in the fields and provide stability 
for their community's future.
    Thanks to this success, we are now developing a ``transition 
strategy'' for some households, helping them move to host-government 
and/or partner safety net programs because they will no longer need 
WFP's help.
    We are encouraging donor governments to work more directly with us 
in these kind of programs, instead of doing them in isolation, so we 
can achieve these results on a larger scale.
    For example, in 2016, we had 10 million people in 52 countries in 
Food Assistance for Assets programs. They were building roads, planting 
trees, and working on irrigation, water ponds and other agriculture-
related projects. The projects not only gave them hope but enabled them 
to build up their own communities.
    Another key component of this pro-development strategy starts 
younger--with school children.
    In 2016, we directly fed 16 million children with school meals in 
60 countries, and we gave support that enabled food for another 45 
million children.
    It's enormously cost-effective--on average, WFP spends $50 to feed 
a child in school for an entire year. That means, on average, we spend 
25 cents per meal--just 10 percent of the average cost of a school meal 
in the United States.
    There's something truly important about this school feeding program 
that's more than just the food and how cheap we can get it to the lunch 
table.
    For some parents, the food is the reason they send their child to 
school. It's assurance that they will indeed be fed.
    And I think it does more than that. Those children sit down, and 
talk, and laugh together while eating. I think that time helps these 
children see each other as people. That meal binds them together. And 
when they're older, those bonds are harder to break.
    Just this week, I received a note from Hatem Ben Salem, the 
Minister of Education in Tunisia that discussed how help from WFP is 
putting school meals at the heart of education reform in his country. 
These reforms are designed to keep children in school, a key part of 
that country's efforts to improve stability.
    But what impressed me most was the Minister's ``warm memory'' of 
his own experience with school meals as a child.
    ``Lunchtime at school offered an opportunity for children from 
diverse backgrounds, rich and poor, to sit around a table and share a 
hot meal. The image of the two hands shaking, which portrayed the 
support and solidarity of the American people through USAID, is still 
in my memory as a symbol of equality of opportunity and social cohesion 
in my country,'' he wrote.
    Mr. Chairman, with your permission, I'd like to submit the note 
from Hatem Ben Salem for the hearing record.
    The minister's memory reminds me of my own childhood, in a little 
town called Lamar, South Carolina. It was a tense, controversial time 
back then, in the early 1970s, when schools were being desegregated 
across the South.
    I stayed in the public schools, because my parents strongly 
believed in the power of public education. And like a lot of kids, I 
played sports. Most of my friends did too, and a lot of times they'd 
stop at our house for dinner as they walked home from practice.
    I remember learning that that meal, courtesy of my mother's 
Southern cooking, was one of two that some of my teammates would have 
that day. The other would be the lunch provided to them for free in 
school.
    Every so often, I run into one of those teammates when I'm back 
home. We see each other as old friends, regardless of our faith 
traditions or what our skin color is or who we voted for in the last 
election.
    A meal cannot solve all of society's problems, but my experience, 
and the experience of Minister Ben Salem, suggests that it is 
fundamental and does have power to bridge barriers. So, my big dream is 
to make sure that every child who gets assistance from WFP gets in a 
school meals program. And every able-bodied beneficiary is in a food-
for-assets program.
                       breaking down bureaucracy
    One of the biggest challenges we have is the siloed nature of not 
just the U.N., but our donors as well. Those of us in the U.N. can take 
some blame for not doing a good enough job of breaking out of boxes. 
There's too much worrying about who will get the credit.
    We are also trying to break down barriers between donor countries, 
so money that comes to WFP can encourage, not discourage, long-term 
strategic planning and execution. More than 90 percent of the money we 
get is earmarked, not just for specific countries, but specific 
activities within them. So, for example, in many cases we can't build 
roads to connect farmers to markets, even if we have the qualified 
teams who could do just that.
    The United States has long been in a leader in delivering flexible 
funding--it is by far and away our most flexible donor. I commend the 
leadership of President Trump's Administration, including my friends 
Sonny Perdue, the Secretary of Agriculture, and Mark Green, USAID 
Administrator.
                    we are your offense and defense
    My hope for the near future is that those who work hard on security 
issues can draw more attention to the role fighting hunger can play in 
reducing security threats. This is happening on the international 
front, for example, as the Netherlands and Switzerland are pursuing 
Security Council attention on hunger.
    Global military spending is now at $2 trillion a year, but I 
believe that food and other essential humanitarian assistance can also 
be a very cost-effective way of creating stability. Or as Secretary of 
Defense Mattis has said, effective humanitarian assistance means he 
needs to buy fewer bullets.
    The humanitarian and security sectors are of course different, with 
different roles. But we are united in the desire for peace and 
stability. And I believe that our work at WFP--along with bags of food 
stamped, ``from the American People''--makes the work of others 
easier--and less dangerous.
    Our work towards Zero Hunger is a way to be on offense, because it 
paves the way for those in the security sector to set different 
priorities, maybe even moving out of some countries or regions.
    And if we can truly achieve Zero Hunger, we will be the best 
defense for the nations of the world. We'll create stability that 
reduces the risk of conflict.
    We'll be doing it for people like Nyalam, and her 3-month-old girl 
named Rejoice, whom I met when I was in South Sudan last year. She 
said, ``I would like God to touch the hearts of the people who are 
fighting so they can live in peace and allow us to live in peace. 
Because we really don't know what they are fighting for.''
    I want Nyalam and her little girl to be able to live, go to school, 
work their fields and pursue their dreams. If we can help them do that, 
we'll truly be saving lives and changing lives. And it will help 
everyone, around the world.

    Senator Young. Thank you, Governor, for setting the table 
there with that compelling testimony.
    You discuss the cost of providing humanitarian assistance 
when you have refugees leaving the Middle East, the Sahel, and 
traveling to Europe, and how those costs increase when you had 
this instability, these refugee flows.
    Can you provide some additional details on this and discuss 
the policy implications of this cost on receiving countries, if 
you would?
    Mr. Beasley. Well, multiple ways, but just as I was 
mentioning earlier, for example, in the Syrian war, the cost of 
feeding a Syrian in Syria is about 50 cents per day. Normally 
it is about 30 cents per day in non-conflict zones, but as you 
can imagine the increased cost and security of delivering food 
in war zones is quite extraordinary. And I must add my 
admiration for the men and women that work inside the World 
Food Programme and those we partner with. They put their lives 
out, as you well know, every single day, whether it is Syria or 
Yemen or South Sudan or northeast Nigeria or Somalia, where you 
have tremendous conflict and desperate situations.
    But the 50 cents per day versus 50 Euros per day for a full 
humanitarian cost when you get into declared refugee status. So 
when you look at the implications of the cost factor and the 
impact it has on nations, and particularly when you consider 
that most nations that are impacted are not the wealthy 
nations, because most refugees end up in other poor nations; 
when you look at South Sudan, you have over a million refugees 
in Uganda, in Ethiopia, in Rwanda; or in the Myanmar crisis, 
they are in Bangladesh, and the list goes on. This is the 
problem when you have, for example, the country of Colombia. 
The country of Colombia has made so much progress in the past 
15 years on peace, but now you see every bit of that progress 
has the potential of being destabilized because of this 
extraordinary influx of folks.
    Senator Young. So you and I have discussed this before. 
Most of these individuals, they do not want to leave their 
homes, they do not want to leave their home countries. Correct?
    Mr. Beasley. Correct.
    Senator Young. Okay. So they are driven out. Does it make 
some sense, in light of the increased cost and in light of the 
desires of these refugees alike, for the American taxpayer to 
be thinking about, gosh, how do we prevent this situation? How 
do we help these vulnerable people on the front end as opposed 
to the back end?
    Mr. Beasley. Effective humanitarian assistance and 
development programs save not just money but save lives, and it 
is in the national security interests of the American people 
and the Europeans.
    Senator, I see this every day. I can tell you story after 
story of talking to women whose husbands had to sign up with 
ISIS or al-Shabab or Boko Haram or al-Qaeda. Why? Because they 
had no food. You see, the extremists, the terrorist groups, 
will use food as a weapon of recruitment, a weapon of war. We 
see food as a weapon of peace or a weapon of reconciliation, of 
building bridges. So if you cannot feed your little girl in 2 
weeks and the only show in town is a terrorist group, so many 
men have signed up because they have no other alternative, and 
the costs will be 10 to 100 times what it would be if we did it 
right and got ahead of the curve and provided sustainable 
development.
    Senator Young. So we need timely, we need effective, we 
need sufficient resources to be brought to bear to deal with 
this issue.
    You alluded to the siloed nature of our donor system. I 
would like you perhaps to elaborate on that. I know the World 
Food Programme, per your testimony, is trying to break down 
these barriers between donor countries so that the money that 
comes in can encourage, not discourage, long-term strategic 
planning and execution. But maybe you can share with us, all 
those who are watching here, what barriers exist between donor 
countries and how we might play a constructive role--Senator 
Merkley, myself, and others on the committee--to encourage 
better coordination among donors.
    Mr. Beasley. One of the advantages of having been a United 
States governor, like you, you see a problem--how do we solve 
it? Now, what programs do we have? Sometimes, as you well know, 
programs have been defined based in the `60s and the `70s, with 
little flexibility. And because the problems that we face today 
are different, tremendously different, we need more flexibility 
to be able to achieve the objectives.
    So we see, for example, every particular food recipient, a 
beneficiary out in any given country, and it is a non-short-
term emergency, like a hurricane or an earthquake or something 
like that, because now there are protracted conflicts. But how 
can we use every humanitarian dollar as a development 
opportunity?
    For example, last year, just last year alone, we had over 
10 million people engaged in a food-for-asset or food-for-work 
type of program whereby they were building roads, over 7,000 
miles of roads last year, bridges, irrigation ponds, 5,400 
ponds and irrigation facilities, just like in Kenya alone, 
330,000 acres of land rehabilitated. This was just last year. 
In the Tigre area a few years ago we rehabilitated with 
beneficiaries approximately 1 million acres. Now, if you go to 
that area, money well spent, it is no longer vulnerable to 
extremist groups. It is resilient. They have crops. They have 
livelihoods. And they are no longer dependent on international 
support. That is the type of aid; that is the type of strategic 
thinking.
    But it is not just a U.S. issue. I believe we need to give 
greater flexibility within the programs of the United States 
Government, but also the United Nations has to be more flexible 
as well, and at the same time other major donor countries have 
got to be more flexible.
    I do believe, and I have clearly stated this to leaders in 
other countries, that the major donors need to collaborate in a 
more holistic, comprehensive approach so that we do not have 
competing programs that sometimes these governments will take 
advantage of that diminishes the opportunities for success with 
limited dollars. But I do believe if we can have the food for 
asset type of approach, because if you do not have food 
security, you are not going to have anything else. I mean, the 
migration, the conflict, the chaos, it all starts with food 
security. And if people can eat, they will stay home, and young 
boys and girls will stay home with a brighter future. We see 
that every day in the World Food Programme.
    Senator Young. And to ensure that people can eat, I think 
your emphasis on flexibility is certainly merited, especially 
this statistic that you offered in your written testimony, that 
more than 90 percent of the money that the World Food Programme 
receives is earmarked not just for specific countries but for 
specific activities within them. I do not have anything to 
benchmark that against, but that strikes me as very high.
    Mr. Beasley. Well, the more flexibility we have, that gives 
us the ability to pre-position and truly design the programs 
with the right modalities. These countries differ. In certain 
countries you want to be bringing commodities, and in certain 
countries you want to have a voucher type of system to 
stimulate the local market. So how do we do that so we can have 
farm to asset or farm to market alliances and create economic 
viabilities in countries, versus just coming in and bringing 
food aid in whatever capacity it may be?
    We know when we can come in and try to align it with 
economic viability and opportunities for small-farm holders, it 
is a tremendous opportunity. For example, last year with the 
United States, out of the $7 billion that we raised this past 
year, $2.5 billion came from the United States. Just last year 
alone, we actually purchased $350 million worth of food from 
small-holder farmers inside Africa, helping stimulate and grow 
the economy so that they could have sustainability and 
resilience.
    Senator Young. Thank you.
    Senator Merkley.
    Senator Merkley. I am very struck by your vast knowledge 
from this past year of visiting so many parts of the world, the 
conflict zones, areas affected by drought, all kinds of things, 
and I understand there is an opening in the Secretary of 
State's office.
    [Laughter.]
    Mr. Beasley. Senator, if this hearing goes more than an 
hour----
    [Laughter.]
    Senator Merkley. I wanted to focus on a statistic you 
mentioned. If I heard it right, 50 cents a day to provide 
meals, so roughly the equivalent of 15 cents per meal. I do not 
think people realize how much bang for the buck occurs in----
    Mr. Beasley. And that is in a war zone. It is actually 31 
cents in a non-war zone.
    Senator Merkley. Yes. And you also mentioned Myanmar. In 
Myanmar, we do not have drought. We did not even have a civil 
war. But we had actions of a government that decided to 
essentially assault one of its own minority groups in a massive 
way. I am not sure how we could have prevented that, but I do 
think that the international community needs to respond 
vociferously to discourage other dictators from deciding to 
take action against unpopular groups. I hope that our 
government and many governments in the U.N. will speak up 
ferociously about that.
    You used a phrase that, while we may see food as an 
instrument of peace, for many it is a weapon of war. If I was 
taking a look at Somalia, there we have al-Shabab that used a 
food shortage in 2011 to boost its recruitment from the local 
population by providing salaries and cash payments while 
restricting the humanitarian aid that was coming in from 
outside. We see all sorts of other things, including al-Shabab 
putting taxes on the foreign aid workers who are delivering 
food.
    As you see these developments where hostile groups are 
blocking food--and my colleague made a really concerted point 
of that in terms of humanitarian relief in Yemen--or you see 
other strategies that involve trying to block food from getting 
to people to starve out the opponent, et cetera, what sorts of 
things should we be thinking about as an international 
community to try to respond to those tactics?
    Mr. Beasley. Senator, because it is different than 30 or 40 
years ago--and let me say thank you to this committee because I 
do believe that because of the efforts of the men and women on 
this committee, that we had tremendous change in course of 
direction in Yemen. The Saudis, UAE, and others, the support 
and cooperation that is taking place in the last couple of 
months has been a dramatic improvement in terms of that part of 
the war.
    Now, unfortunately, from the Houthi side, it has gotten 
worse. Our access has gotten more complicated, and, not to go 
into all the details, but we are really struggling getting the 
access we need to the people that are very vulnerable 
throughout a country whereby almost--we are feeding about 7 
million people on any given day, and 18 million of the 27 
million are very food insecure. It is a desperate situation.
    But because of the United States and support of some allies 
like the U.K., we have made great progress with Saudi Arabia 
and UAE. Now we need to bring the pressure on the Houthis to 
give us access we need.
    In places where you have Boko Haram or al-Shabab or ISIS 
and al-Qaeda, they use food in multiple ways. One, they block 
access so that food cannot get to the area. Then they will use 
food for recruitment. What is very critical--we are neutral, as 
you well know. We are a neutral entity in all regards. I would 
highly advise in this very complicated area that we need to 
make certain that we can safely move food, and there needs to 
be a security and safety component that goes along with these 
very fragile and vulnerable areas.
    As I was mentioning earlier, whether you are talking about 
Somalia, where al-Shabab is primarily engaged now, and more 
fragile Ethiopia, particularly in the Somali region of 
Ethiopia, and then go all the way to the Greater Sahel area, 
people will talk about the Sahel. Well, the Greater Sahel, 
which is about 500 million people, from Nigeria and the Red Sea 
all the way to the Atlantic, you are talking about an 
extraordinarily complex and very fragile area that I am 
extremely concerned about in so many ways.
    ISIS, who has moved primarily down into this region, are 
partnering and cutting deals with Boko Haram in northeast 
Nigeria in the Lake Chad Basin, taking advantage of the drought 
and the fragile conditions, and this is also being compounded--
and this is really hard to believe. No matter what you may 
think of what is causing the weather to change, we all know it 
is changing. We all know the impact that is taking place in 
this Greater Sahel region.
    For example, when I was meeting with the Minister of 
Agriculture from Nigeria last week, he told me that in the 
Niger-Mali area, that border area, each year 1.5 kilometers of 
what was grazing territory is lost to sand, per year. Now, what 
does that mean? It may not seem to be that big of a deal, 
except guess what? The herders are moving down 1.5 kilometers 
per year into the croplands, and the wars and the conflicts and 
the killings are absolutely amazing. Couple that with ISIS and 
Boko Haram taking advantage of this fragility, just like what 
we are seeing in Venezuela, it is an absolute perfect storm 
heading our way.
    Of course, we know what the extremist groups want to do. 
They want to be able to infiltrate the migrants so they can 
destabilize the global economy in Europe and the U.S. So it is 
in the national security interests of the American people, and 
it will save lives and save money, if we get ahead of the curve 
and do the things we need to do to provide the resilience 
necessary, Senator.
    Senator Merkley. Thank you.
    Senator Young. I thank you for all your testimony, Mr. 
Executive Director. I would only close by noting that you have 
indicated that there is a need for a proactive and strategic 
plan to help us create security and stability. Since we are, 
respectively, Chairman and Ranking Member of the Multilateral 
Institutions Subcommittee here, I think it appropriate that 
maybe offline we dialogue with you and your team about how we 
might constitute such a strategic plan or catalyze the creation 
of one, because that seems to make a lot of sense.
    So, thank you so much for your testimony, and that will 
conclude our first panel.
    Mr. Beasley. Thank you, Senator.
    Senator Young. I would like to welcome you again to the 
subcommittee, Mr. Nims. You serve as the Acting Director of the 
Office of Food for Peace at USAID. This is your second time to 
testify before the subcommittee, and we are so appreciative of 
the time you give us. Your full written statement will be 
included in the record.
    We are dealing with a somewhat compressed timeframe, which 
explains why we are moving quickly between panels. We are very 
interested to hear from all of our witnesses. So I welcome you 
to go ahead and summarize your written statement in about 5 
minutes, sir.

STATEMENT OF MATTHEW NIMS, ACTING DIRECTOR, OFFICE OF FOOD FOR 
        PEACE, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Nims. Thank you, Chairman Young and Ranking Member 
Merkley, and members and other people here today, for the 
invitation to speak with you about the link between global food 
security and America's economic prosperity. I am honored to be 
here and honored to be on the panel with such esteemed 
colleagues, as well as to be following my good friend, Governor 
David Beasley.
    I am Matthew Nims, Acting Director of USAID's Office of 
Food for Peace, the largest provider of food assistance in the 
world. Last year, Food for Peace reached nearly 70 million 
people in 53 countries.
    We provide food assistance because it eases human 
suffering, as you said, and represents America's compassion and 
generosity. Helping feed those around the world in their 
greatest time of need is the right thing to do but also makes 
America and her allies safer. Hunger and conflict are linked. 
Where hunger persists, instability grows. The opposite is also 
true: where conflict occurs, hunger often follows. Food for 
Peace is uniquely positioned to tackle hunger in both of these 
situations.
    The U.S. National Security Strategy states, ``We will 
partner with our allies to alleviate the worst poverty and 
suffering which fuels instability.'' History has proven this to 
be true. In 2010, hunger was a catalyst to the Arab Spring, and 
today in Venezuela, as the Governor just talked about, economic 
instability has made food and other basic supplies unaffordable 
and even unavailable, which in turn has led to growing civil 
unrest. Where there is conflict, hunger is often a symptom. 
Conflict prevents farmers from planting and harvesting crops, 
robbing them of their livelihoods and later robbing others of 
food to eat. Conflict prevents people from traveling to and 
from markets, making the food that is available inaccessible to 
some. Over time, conflict prevents people from living full, 
healthy lives because they are weakened from lack of food and 
fall victim to preventable illness.
    I just returned from Uganda, where I saw the effects of 
more than 1.4 million refugees from the Democratic Republic of 
Congo, South Sudan and Burundi who have all come to Uganda to 
seek shelter. The sheer number of refugees is an enormous 
burden for a host country that already struggles with its own 
poverty and hunger. But Uganda is still thriving, with good 
agricultural production, infrastructure development, and good 
roads, things that can only really flourish when there is 
peace. It was a stark contrast to my visit to South Sudan last 
year, where I have seen the effects the war has had, truly 
draining the economy.
    Conflict forces millions of people to make choices no one 
should have to face: stay where they are and starve or head 
into unknown danger to find food. We see this today in places 
like Yemen, South Sudan and Nigeria, and Somalia, where people 
are dependent on humanitarian assistance for survival. For 3 
years, conflict in Yemen has hampered commercial trade in a 
country that imports 90 percent of its food. As a result, 17.8 
million people, the largest number in the world, still face 
severe food insecurity.
    The years of violence in South Sudan have transformed the 
world's youngest nation into the world's most food insecure. 
Famine was declared a year ago. A robust international 
humanitarian response rolled back the famine 4 months later, 
but conflict continues, and famine once again is a risk.
    In northeast Nigeria, Boko Haram and ISIS-West Africa have 
displaced millions. Violence, including deliberate attacks on 
and continued kidnapping of civilians and aid workers, prevents 
relief groups from reaching the most vulnerable communities.
    While drought is a primary driver of hunger in Somalia, 
violence also prevents relief groups from reaching some 
populations; 2.7 million Somalis face significant hunger right 
now.
    These are not the only countries facing crises. The 
humanitarian system is enormously strained. Tomorrow, March 15, 
marks the seventh anniversary, 7 years, of the conflict in 
Syria, which has left 10.5 million people unable to meet basic 
needs. Last August, violence in Burma forced more than half-a-
million Rohingya refugees to flee to Bangladesh. In the 
Democratic Republic of Congo, nearly 7.7 million experience 
extreme hunger due to prolonged conflict and widespread 
poverty.
    In 2018, 76 million people worldwide will need emergency 
food assistance. Over half of our humanitarian funding will 
likely go to six emergencies, nearly all conflict driven. The 
work we do in conflict areas is harder, more expensive, and 
more dangerous. Last year, 131 aid workers died primarily in 
conflict areas, and numerous more were harassed, attacked, and 
kidnapped.
    Large, protracted, conflict-driven crises are our new 
normal, and USAID needs all the tools possible at its disposal 
to respond.
    Nutritious food is essential where there is high 
malnutrition. So in places like Bangladesh, we use American-
made therapeutic food. For Syrian refugees, who live in urban 
environments where markets function, electronic vouchers and 
cash transfers make the most sense and have the most impact. 
Such flexibility enables us to save the most lives possible and 
use taxpayer dollars wisely.
    Through our resilience programs and in coordination with 
other parts of USAID, we also work proactively to tackle the 
underlying causes of hunger which, left unchecked, can lead to 
frustration and despair that can be exploited. These long-term 
programs are essential to saving lives and livelihoods, growing 
national and regional economies, and diminishing the 
unsustainable financial burden of recurring humanitarian 
spending.
    A food-secure world where people are not worried about 
their children going to bed hungry is in the U.S. interest. 
Stability helps ward off future conflict, and prosperity opens 
new markets for U.S. exports and trade.
    Thank you for your attention to this and the continued 
support Congress has provided to USAID and specifically our 
humanitarian programs over the years.
    [The prepared statement of Mr. Nims follows:]

                   Prepared Statement of Matthew Nims

    Chairman Young, Ranking Member Merkley, and Members of the 
Subcommittee, thank you for the invitation to speak with you today 
about the importance of food assistance and the link between global 
food security and America's economic prosperity and national security. 
I am grateful you are drawing attention to this subject and especially 
for your history of support for humanitarian efforts to help the 
world's most vulnerable people.
    I am Matthew Nims, Acting Director of USAID's Office of Food for 
Peace (FFP), the largest provider of food assistance in the world. We 
use a range of tools, including U.S. commodities, locally and 
regionally procured food, food vouchers, cash transfers and other 
complementary activities, to reach the world's most food insecure with 
life-saving assistance. Last year, our food assistance reached more 
than 70 million people in 53 countries.
    We provide food assistance because it eases human suffering and 
represents our core American values of compassion and generosity. 
Helping feed those around the world in their time of need is the right 
thing to do but also makes America and her allies safer. Hunger and 
conflict are inextricably linked. Where hunger persists, instability 
grows. The opposite is also true: where conflict occurs, hunger 
follows.
    The President's national security strategy states that America 
should target threats at their source, catalyze international response 
to man-made and natural disasters and provide to those in need. As the 
2016 Global Food Security Act states, ``It is in the national interest 
of the United States to promote global food security.'' A food-secure 
world where people are not worried about their children going to bed 
hungry is in the U.S. interest: stability helps ward off future 
conflict and prosperity opens new markets for U.S. exports and trade.
                     hunger contributes to conflict
    In November 2015, the National Intelligence Council linked hunger 
to political instability and conflict. The report stated that ``the 
risk of food insecurity in many countries will increase during the next 
10 years and declining food security will almost certainly contribute 
to social disruptions and large-scale political instability or 
conflict.'' Ten years have not passed, but this prediction has likely 
already proven true.
    Hunger often serves as a measurable warning signal for predicting 
conflict. According to the 2014 Worldwide Threat Assessment of the U.S. 
Intelligence Community, ``food and nutrition insecurity in weakly 
governed countries might also provide opportunities for insurgent 
groups to capitalize on poor conditions, exploit international food 
aid, and discredit governments for their inability to address basic 
needs.'' In every year since, food security has been mentioned at least 
once in the assessments. The Fund for Peace Fragile States Index also 
uses food and nutrition as an indicator of fragile states. In 2017, FFP 
operated in all of the top 10 countries listed in the fragility report 
and 21 of the top 25.
    Events over the last decade demonstrate that acute hunger can 
trigger political instability. In 2008, food prices spiked and sparked 
riots and street demonstrations in more than 40 countries around the 
world, and may have contributed to toppling governments in Haiti and 
Madagascar. In 2010-2011, the first signs of the Arab Spring were riots 
in the streets of Tunisia over dramatic increases in food prices. 
Spikes in food prices in Algeria and Egypt triggered similar 
demonstrations. Hunger was by no means the sole cause of the Arab 
Spring, but it was an important catalyst.
    Our own U.S. National Security Strategy states, ``We will partner 
with our allies to alleviate the worst poverty and suffering, which 
fuels instability.'' Tackling the root causes of hunger and 
malnutrition--and thus potential drivers of conflict--is essential to 
breaking the vicious cycle of poverty and laying the foundation for 
stable, inclusive growth. Equipping communities--especially women and 
children--with the tools to feed themselves mitigates extremely costly 
humanitarian assistance.
    Through Feed the Future, USAID also supports long term food 
security programs that address the root causes of hunger in areas of 
chronic crisis to build resilience and food security of local 
communities. USAID's long-term development activities save lives and 
livelihoods, grow national and regional economies, and diminish the 
unsustainable financial burden of recurrent humanitarian spending in 
the same places. A 2013 U.K. study estimates that every $1 invested in 
resilience will result in $3 in reduced humanitarian assistance needs 
and avoided losses over 15 years. A more recent USAID study confirms 
this estimated return, proving true the adage `an ounce of prevention 
is worth a pound of cure.'
    President Trump has said that economic security is national 
security; USAID's development activities are both. Our work not only 
helps to stabilize countries, it also creates new friends and allies, 
and new customers for American goods.
                     conflict contributes to hunger
    Conflict causes enormous social and economic devastation, and 
hunger is one of its first symptoms. Conflict prevents farmers from 
planting and harvesting crops, robbing them of their livelihoods and 
later robbing others of food to eat. Conflict prevents people from 
traveling to and from markets, making the food that is available 
inaccessible to some. Over time, conflict prevents people from living 
full, healthy lives because they are weakened from lack of food and 
fall victim to preventable illness. We see this clearly today in places 
like Yemen, South Sudan and besieged areas of Syria.
    Around the world, hunger driven by conflict forces millions of 
people to face a choice no one should have to face: Stay where they are 
and starve, or run for their lives in search of food. They leave their 
families and friends behind and head into unknown danger to find food. 
More than 65 million people are estimated to be displaced within their 
own countries or are refugees in other countries--an unprecedented 
number. Whether they stay in their own country or seek hope by crossing 
a border, those displaced by conflict are often dependent on 
humanitarian assistance to survive.
                                 syria
    Tomorrow, March 15th, marks the seventh anniversary of the conflict 
in Syria, which began with protests after President Bashar al-Assad 
failed to produce promised legislative reforms. This conflict has left 
10.5 million people in Syria unable to meet basic needs--1.5 million 
more than 2017. Food prices have risen 800 percent since the conflict 
began. Displacement and lack of employment have pushed 85 percent of 
the country into poverty. Households are cutting back food consumption, 
spending savings and accumulating debt--actions that disproportionately 
affect the most vulnerable populations, especially children.
    Neighboring countries--Egypt, Iraq, Jordan, Lebanon, and Turkey--
today host 5.5 million Syrian refugees who in many cases lack legal 
pathways to work and depend on emergency food assistance. This strains 
host communities as they continue to bear the enormous cost of 
providing for these refugees.
    So far in FY 2018, USAID, through the Office of Food for Peace, has 
provided nearly $198 million to support efforts reaching approximately 
2.35 million beneficiaries inside Syria and another one million Syrian 
refugees in neighboring countries each month. Inside Syria, our 
partners provide flour to bakeries, monthly household food parcels, 
ready-to-eat rations for recently displaced populations, and food 
vouchers. For Syrian refugees, FFP provides electronic food vouchers 
for use in supermarkets and local markets.
                                 yemen
    Conflict in Yemen has been ongoing for 3 years. Fighting has 
hampered commercial trade, which is devastating in a country that 
traditionally has imported 90 percent of its food and most of its fuel 
and medicine. Food that does make it to market is increasingly 
expensive, with some items doubling in price as supplies dwindle. These 
price increases dramatically affect the amount of food people can buy, 
while inconsistent payment of civil servant salaries reduces the amount 
of money families have to spend on food and other essentials.
    As a result, 17.8 million people in Yemen are experiencing hunger, 
by far the largest food security emergency in the world. Yemen 
continues to face the risk of outright famine because--in a worst case 
scenario--the conflict could halt imports, disrupt trade and virtually 
stop our humanitarian assistance from reaching the populations who need 
it.
    We have contributed $130 million this fiscal year to support the 
U.N. World Food Program emergency food assistance operations in Yemen, 
helping WFP reach 7 million people each month. We also provided UNICEF 
with American-made therapeutic nutritional products to treat children 
experiencing severe acute malnutrition and to support coordination 
efforts among humanitarian actors in Yemen.
    In addition to directly providing food, USAID is helping improve 
access to food. On January 15, four USAID-supported mobile cranes 
arrived at Al Hudaydah Port and were first used on February 9. The 
cranes, each able to lift up to 60 tons, will bolster port capacity and 
speed the unloading of cargo, increasing the flow of goods to 
vulnerable populations.
                              south sudan
    Years of violence in South Sudan has transformed the world's 
youngest nation into one of the world's most food-insecure nations. 
Despite collaborative humanitarian efforts to stave off famine 
throughout the conflict, famine was declared in parts of the country in 
February 2017. While a robust international humanitarian response--
including U.S. efforts--did help roll back the famine 4 months later, 
food security continues to deteriorate across the country. This man-
made crisis is a direct consequence of prolonged political conflict 
that ignores the urgent needs of the South Sudanese people. The failure 
reach a lasting political settlement makes the return of famine a real 
risk in the coming months.
    In January 2018, nearly half of South Sudan's population--5.3 
million people--required life-saving food assistance. The United States 
is the single largest donor to the South Sudan crisis response and our 
food reaches an average of 1.4 million people inside South Sudan every 
month.
                                nigeria
    Years of conflict perpetuated by Boko Haram and more recently ISIS-
West Africa, have triggered a humanitarian crisis in northeast Nigeria 
and surrounding countries in the Lake Chad Basin region. As of February 
2018, the insurgency had displaced more than 1.6 million people within 
Adamawa, Borno and Yobe states and forced over 214,000 Nigerians to 
flee into neighboring Cameroon, Chad and Niger, leaving millions more 
across the region in need of humanitarian assistance. A combination of 
diminishing household food supplies, rising food prices and declining 
purchasing power is leaving more families without enough to eat.
    Violence--including deliberate attacks and continued kidnapping of 
civilians and aid workers--prevents relief groups from reaching 
vulnerable communities and blocks communities' access to medical 
facilities and markets. Bureaucratic impediments are delaying the 
delivery of food and medical supplies. Thousands of people may have 
already experienced famine in hard-to-reach areas of Nigeria's Borno 
State, and many communities affected by this conflict remain at an 
elevated risk of famine.
    USAID's Office of Food for Peace remains one of the largest donors 
of humanitarian assistance for Nigeria, providing $68 million in FY 
2018 for people affected by the ongoing crisis. With Food for Peace 
support, the U.N. World Food Program has reached, on average, 1 million 
Nigerians each month since December 2016. Combined with our NGO 
partners, we help more than 2 million Nigerians with emergency food 
assistance.
                                somalia
    While drought is a primary driver of hunger in Somalia, political 
instability and conflict continue to prevent relief actors from 
reaching some vulnerable populations in rural areas. The situation is 
fragile and, in the absence of humanitarian assistance, 2.7 million 
Somalis face significant hunger.
    USAID provides food-insecure Somali households and internally 
displaced people with emergency food and nutrition assistance. In FY 
2018, we've provided more than $59 million to partners for a variety of 
interventions including ready-to-use therapeutic foods to treat 
malnourished children.
                                 burma
    Attacks by armed actors on Burmese security posts in August 2017 
and subsequent military operations in Rakhine state, home to the 
majority of Rohingya Muslims in the country, have caused a humanitarian 
crisis in Burma and neighboring Bangladesh. Lack of humanitarian access 
and ongoing population movement have left an unknown number of people 
in need of immediate food assistance in Rakhine State.
    The violence in Burma has forced approximately 671,000 Rohingya 
refugees to flee to southeastern Bangladesh, joining more than 212,000 
Rohingya living in the country prior to August 2017, according to the 
U.N. Most of these refugees currently reside in temporary settlements 
near Cox's Bazar, where they are living in conditions well below 
humanitarian standards and suffer from hunger and high levels of 
malnutrition.
    In response to the current crisis, USAID quickly mobilized 
assistance on both sides of the Burma/Bangladesh border. In 2017, USAID 
provided $20.8 million to partners in Burma, including food, nutrition, 
water, sanitation, and hygiene, health and protection assistance to 
vulnerable populations.
    In FY 2018, FFP provided more than $26 million to U.N. partners for 
refugees and host communities in Bangladesh. This assistance includes 
extensive emergency food, nutrition, capacity building, logistics and 
coordination support to ensure a rapid, effective scale-up of 
lifesaving services.
                   democratic republic of congo (drc)
    Many parts of the DRC continue to experience worsening conflict and 
widespread poverty, contributing to a doubling of population 
displacement, along with chronic hunger and restricted livelihood 
activities. Crises in the Kasai region and Tanganyika, North and South 
Kivu, and Ituri Provinces are displacing families, disrupting 
agriculture and impeding access to markets, health care and schools. 
There are approximately 4.5 million Congolese internally displaced and 
more than 540,000 refugees from neighboring countries in the DRC. 
Nearly 7.7 million Congolese are experiencing extreme hunger.
    USAID provides U.S. in-kind food assistance and locally and 
regionally procured food to internally displaced populations, returnees 
and vulnerable host communities through general food distributions, as 
well as cash transfers for food to refugees in difficult-to-access 
areas of the DRC. Furthermore, USAID collaborates with NGOs on longer-
term food security activities that aim to improve agricultural 
production, maternal and child health and nutrition, civil 
participation and local governance, water and sanitation, natural 
resource management and biodiversity, and microenterprise productivity. 
These programs seek to strengthen household economic well-being and 
generate lasting gains in food and nutrition security.
           conflict strains and stresses humanitarian actors
    USAID is uniquely positioned to tackle hunger. When hunger is a 
driver of instability, our resilience activities connect with a broader 
set of food security and resilience investments in America's initiative 
to end global hunger, Feed the Future. We're tackling the underlying 
causes of hunger that, left unchecked, can lead to frustration and 
despair that can be exploited by terrorist groups and criminals. When 
hunger is a consequence of conflict, our emergency food assistance 
saves the lives of those displaced by violence.
    I am proud of the U.S. government's actions, and we will continue 
to work alongside other donors, NGOs, U.N. agencies, and others to 
avert famine. But we are never focusing on just one country or region 
at a time and the scale and nature of the humanitarian crises in the 
world right now strains the humanitarian system enormously.
    In 2018, the Famine Early Warning System Network estimates that 76 
million people worldwide will need emergency food assistance. While 
that number decreased slightly from last year, the severity of needs 
has increased, largely due to conflict, leaving millions facing life-
threatening hunger. Global chronic malnutrition is increasingly 
concentrated in conflict-affected countries and projections indicate 
that more than two-thirds of the world's poor could be living in 
fragile states by 2030.
    Protracted, complex crises are taking up increasing amounts of 
scarce humanitarian resources and presenting unique challenges. USAID 
estimates that in FY 2018 over half of our humanitarian funding will be 
allocated toward just six major emergencies, nearly all conflict 
driven. Working in conflict means that the work we do is harder, more 
expensive, and more dangerous.
    Humanitarian actors work tirelessly and at great personal risk to 
deliver life-saving assistance to those who need it most. But in 
conflict areas, they have been harassed, attacked, or killed, and 
relief supplies looted. According to the Aid Worker Security Database, 
131 aid workers died in 2017, primarily in conflict areas. Syria and 
South Sudan--both protracted conflicts--were the deadliest locations 
(with 48 and 28 aid worker deaths, respectively). Parties on all sides 
of conflict must stop impeding relief efforts by ceasing hostilities 
and allowing for unhindered access.
  food assistance is a band-aid, not a cure to conflict-driven hunger
    USAID is committed to assisting as many people as possible, 
maximizing the impact of our resources and working to leverage 
assistance from others. But humanitarian work involves making tough 
decisions. We're continually seeking ways to make our dollars stretch 
further, to reach the most people with the assistance they urgently 
need.
    In order to respond to a world dominated by large, protracted, 
conflict-driven crises--our new normal--USAID needs all the tools 
possible at its disposal. In Yemen, where nearly all food is imported, 
the best way to respond is with U.S. in-kind food. For Syrian refugees, 
who are spread across the region and live in urban environments where 
markets function, electronic vouchers and cash make the most sense.
    Our emergency food assistance does not operate in a vacuum, 
separate from others in the U.S. Government. We rely on our sister 
office, the Office of U.S. Foreign Disaster Assistance, to provide 
support beyond food in times of crisis; we work with the Department of 
State to provide non-food support for refugees; and we work alongside 
the Department of Defense when humanitarian assistance requires 
additional support to reach those who need it. These coordinated 
efforts mean that we're more effective than we would be if we tried to 
do our work alone. In a world as complex as ours, with our national 
security under greater threat than ever, we must bring to bear the 
entirety of our statecraft toolbox.
    The United States also cannot and should not do it alone--we need 
all of our U.N., NGO, affected government, and donor partners working 
together to tackle these challenges. Last month, Administrator Green 
joined with his counterpart in the U.K. and Grand Challenges Canada to 
announce a humanitarian grand challenge, calling for innovators around 
the world to submit ideas to save and improve the lives of those 
affected by humanitarian crises caused by conflict. We will invest a 
combined $15 million over 5 years to enable governments and the private 
sector to work together to more nimbly respond to complex emergencies.
    In addition to emergency responses, the United States relies on 
bilateral and multilateral channels to engage with foreign governments, 
international organizations and other partners to address the root 
causes of conflict-driven hunger. Only then can we move away from the 
dire human cost and financial burden of humanitarian responses to these 
conflicts, and toward prosperity and stability.
    We are also helping to implement the President's goal of lessening 
the burden on the United States to respond by urging other donors, 
including non-traditional donors, to increase their share of funding 
for humanitarian assistance. The United States will also continue to 
challenge international and non-governmental relief organizations to 
become more efficient and effective in order to make U.S. taxpayer 
dollars go farther by maximizing the benefit to recipients of 
assistance.
    Thank you for your attention to these issues and for the support 
Congress has provided to USAID and specifically our humanitarian 
programs over the years. Please know that your support transforms and 
saves lives every day.

    Senator Young. Well, thank you, Mr. Nims.
    I am eager to turn to resilience and stability that comes 
with providing food assistance generally, which is something 
you spoke to. But you also mentioned the conflict and 
associated humanitarian crisis in Yemen, so I want to briefly 
touch on that.
    There has been some messaging from Riyadh to suggest that 
the opening of the Port of Hodeida might be temporary, and I 
just want to be clear that I will escalate my efforts here in 
the U.S. Senate, and I expect that a number of my colleagues 
will join me in those efforts, if Riyadh were to re-impose its 
starvation blockade and close Hodeida. As I wrote in my letter 
to the President on December 14, ``Suggesting that we must 
choose between defeating Iran's efforts in Yemen and permitting 
unimpeded humanitarian access is a false choice, as self-
defeating and short-sighted as it is immoral.'' I have not 
changed my views.
    I do want to get your opinion, Mr. Nims, about the 
importance of the Port of Hodeida to humanitarian efforts in 
Yemen, and perhaps you could speak to the hypothetical of the 
closure of the Port of Hodeida moving forward and what would 
the humanitarian consequences of that decision be.
    Mr. Nims. Thank you for the question, Senator. As you 
probably know, Yemen is 90 percent dependent upon imports to 
feed its people. The Port of Hodeida is the crucial link to 
ensure that this happens, both for the commercial sector and 
also primarily for the humanitarian operations that are based 
there. The World Food Programme maintains a large operation in 
the Port of Hodeida, and its continued operation is crucial for 
humanitarian operations to continue.
    As of now, the port is open. However, because of some of 
the uncertainty surrounding the port, many shipping companies 
around the world are reticent to send ships into the port, and 
I think until we can as a humanitarian international community 
give a little bit higher degree of certainty, this will 
continue to inflect the amount and level of commerce that we 
see in the port.
    Senator Young. Just to add a measure of certainty perhaps 
in the margins of this situation, it would be helpful to get 
the Administration's position regarding the need to keep the 
Red Sea ports open to humanitarian and commercial supplies, 
especially food, fuel, and medicine. Kindly volunteer that to 
me, sir.
    Mr. Nims. The Administration is unequivocally behind 
keeping the Red Sea ports open for humanitarian and commercial 
traffic on the Red Sea ports.
    Senator Young. Excellent.
    So back to the resilience program of USAID and the 
importance of ensuring we have a wise use of taxpayer money. In 
your testimony you cite a 2013 U.K. study that estimated that 
for every dollar invested in resilience, it is going to result 
in three dollars of reduced humanitarian assistance needs and 
avoided losses in just a 15-year window. I would say that is 
money well spent. You also noted that a more recent USAID study 
confirms this estimated return.
    Can you provide more details on how you believe resilience 
investments save money?
    Mr. Nims. Most definitely, sir. We have learned through our 
programs that taking the time to build the community's as well 
as the host government's ability to respond to crisis, saves 
money in the long run because of the high cost of emergency 
response in these situations.
    What we saw very prominently in the El Nino crisis was 
places in Ethiopia and Kenya, where we had longer-term 
development and resilience programs in place, that the very 
large impact that a drought situation was minimized because our 
longer-term programs have provided the foundation for 
communities to utilize their coping strategies to more easily 
respond. It takes a lot of effort and time to put these 
programs in place, but when they are done effectively and they 
link together both the emergency response aspects combined with 
solid development programming, we are seeing a lessening of the 
costs.
    Senator Young. Are you discovering best practices, and are 
those being widely shared among the humanitarian community?
    Mr. Nims. There are many lessons that we learned from the 
four countries at risk of famine last year, and I think one of 
them is the early warning aspect. Our Famine Early Warning 
System (FEWS NET), which the USAID funds, has been instrumental 
in letting us know when we see the increase of crises coming 
and how to best position ourselves.
    Number two, similar to what the Executive Director of the 
World Food Programme was saying, the dynamic has shifted where 
we are not, as a humanitarian community, simply responding to 
climactic shocks or to tsunamis or earthquakes. What we are 
seeing now is that these are prolonged crises that are taking a 
lot of time and effort. Quite honestly, I think that the 
humanitarian community is still struggling to be able to more 
effectively change our approaches in these situations. Our 
excellent partners, like CARE, like the World Food Programme, 
are leading the way in some of these longer-term solutions, and 
I think we have to double-down on our efforts to be able to do 
this effectively.
    Senator Young. Thank you, sir.
    Senator Merkley.
    Senator Merkley. Thank you.
    Can you detail how the program, our program Feed the 
Future, fits into that vision?
    Mr. Nims. Thank you, Senator, for that question. Feed the 
Future is, I think, that excellent link from the community-led, 
field-based type operations that Food for Peace has been doing 
for the last 50 years to that next level of assistance that is 
needed. So, for example, our programs and our partners, 
primarily CARE, World Vision, CRS, have excellent experience 
working these most vulnerable communities in these countries on 
protecting food security at that community level.
    What Feed the Future is bringing in is being able to then 
work with host governments, work with markets in those 
communities agriculturally to be able to link many times those 
subsistence farmers to a higher level of degree of market 
engagement, to then give that next step that is necessary.
    Food for Peace has and will continue to work with these 
communities, but having that next step to link them to, to the 
higher level of development, is crucial, and Feed the Future is 
giving us that.
    Senator Merkley. Let me translate what I think you are 
saying. When you say link them to that next level, are you 
talking about farm cooperatives and value added to the 
fundamental agricultural products?
    Mr. Nims. Most definitely, sir.
    Senator Merkley. Thank you. In some places we provide in-
kind food. Others, we provide vouchers. In some places we are 
even providing cash payments over electronic messages to cell 
phones. Can you talk about what works in what locations, and 
how has that cell phone strategy helped to keep, in some cases, 
hostile parties from intercepting food aid?
    Mr. Nims. Right now, Food for Peace is very fortunate to 
have a number of tools available as we look at all the crises. 
Our team is very much geared towards looking at what is 
happening on the ground and being able to utilize the correct 
tool to have the most impact to protect food security.
    So you are exactly right. In some places where there is an 
absence of food, in-kind U.S. food is a great tool to be using 
there, and our partners on the ground, along with our own 
famine early warning system, as well as our teams on the 
ground, are able to gauge if that is what needs to be done 
there.
    At the same time, we have the ability to use a voucher-type 
program. If you look at our programs in Syria right now, 
bringing large amounts of U.S. in-kind food into, let us say, 
Lebanon and Jordan to feed refugees would be incredibly 
inefficient. Capitalizing on the market system that already 
exists there, being able to use a complex voucher program that 
allows these refugees to go to local stores, even Safeways or 
large supermarkets to receive their ration, is a much more 
efficient way to do that.
    Our job in Food for Peace is to ensure that what is 
happening on the ground is understood both by our partners as 
well as our teams to ensure the correct mechanism is utilized 
in those situations.
    Senator Merkley. You mentioned that one of those tools is a 
pre-loaded debit card, and why that fits into the Syria 
context?
    Mr. Nims. In Syria, for example, we do have actual cash 
cards that every month are loaded with an amount of a ration 
size to the World Food Programme that allows them to go to 
these stores. This is a direct transfer through banking systems 
that allows us to monitor this more directly, and it diminishes 
other actors' ability to actually access these funds. So it is 
a safe system, and it is in many ways safer than other actions 
because we are able to go electronically through the mobile 
system that gives them a tool that already exists there to be 
able to utilize that for their own food security.
    Senator Merkley. Bangladesh has accepted 700,000 refugees 
from Burma. I had the chance to take a congressional delegation 
there to see it firsthand. There is no room in Bangladesh. 
Bangladesh is about half the size of Oregon, and Oregon has 4 
million people living in it. Bangladesh has about 160 million 
people. I mean, every piece of land is occupied. The hillsides 
are being covered with slip bamboo structures covered with 
plastic. High winds will undoubtedly do a lot of damage to 
those structures. The surrounding trees are being cut down to 
burn to cook. So the hillsides are being quickly denuded, 
raising concerns about the coming rainy season, as well as the 
risk of measles, cholera, and other diseases.
    As one looks at this, it is a massive food distribution as 
well as a health care dilemma. It is a dilemma on so many 
levels. How are you all engaged?
    Mr. Nims. We remain incredibly concerned about the 
situation in Bangladesh, with now almost close to 800,000 
Rohingya refugees. Over 200,000, as you said, in the camp right 
now are actually in places where, with moderate rains, are 
going to be subjected to flooding. We need to act quickly to be 
able to, in a sense, control the overcrowding that we see in 
these camps.
    I think that we also need to understand that the U.S. alone 
cannot fund this. We need other partners around the world to 
step up, and I think with the new humanitarian plan that will 
be coming out soon, that this provides a great opportunity for 
many of the world to ensure that they also are part of this.
    I think another aspect which is very difficult there is, as 
this crisis develops, we do not want to be part of any type of 
forcing of returnees back into Burma because we want to ensure 
that conditions are right for that to happen. Hence, if we are 
looking at a large group of people here, we are going to have 
to better look at the environmental impact of the situation and 
how we can better serve them.
    Senator Merkley. So, I appreciate all of that. Are you 
helping to crank up a significant international momentum or 
more aid from the United States to assist in that situation?
    Mr. Nims. Yes, our teams are involved in that right now, in 
negotiating with----
    Senator Merkley. Thank you. I certainly encourage that, and 
as we have transition in our foreign policy leadership, I think 
it is an opportunity for the United States to consider how we 
might amplify our strategy. This is also a security issue. You 
have 700,000 people, including many young men who have seen 
their spouses raped, their daughters raped, they have been shot 
at, they are ripe for recruitment by international terrorist 
operations. So there is a security dimension as well as a 
humanitarian dimension, and I just want to see the U.S. in the 
forefront of a global effort to take on this challenge, 
including the relationship with Burma and how we exercise that.
    Mr. Nims. Senator, can I just say how much our teams 
appreciate when you all come out to see the efforts that this 
humanitarian community and bringing this to light, and from 
them, just a note of thanks for that.
    Senator Merkley. Thank you.
    Senator Young. Thank you, Senator Merkley.
    We have been joined by Senator Coons, another leader in the 
area of foreign assistance and someone who does not hesitate to 
put his boots on the ground.
    We are going to finish all the panels out. So we have one 
more panel after Senator Coons' questions, and we will be 
concluding no later than 4:00 p.m., since we have a 3:45 p.m. 
vote.
    Senator Coons.
    Senator Coons. Thank you, Senator Young and Senator 
Merkley. It is great to be with you. I am grateful that you are 
dedicating this time and attention to something that matters so 
much to hungry people around the world.
    To my good friend, Governor Beasley, thank you for what you 
are doing to lead the World Food Programme and to be physically 
present in so many of the places around the world that need our 
help, and with our allies who we hope will be stepping forward 
and contributing more to this.
    It is great to see you again, Mr. Nims. I think I last saw 
you in Uganda in the Bidi Bidi camp, if I am not mistaken.
    Mr. Nims. Yes, sir.
    Senator Coons. To my dear friend, Michelle Nunn, thank you 
for what you and CARE do.
    And to General Castellaw and Dr. Sova, thank you for your 
service. I hope you do convey to the folks who work in Food for 
Peace and in World Food Programme and CARE and in other 
organizations how grateful we are for this work. It is 
dangerous, it is difficult, it overwhelmingly happens in some 
of the most remote, most demanding environments on earth. When 
I was in South Sudan, literally in the previous 48 hours there 
had been several aid workers kidnapped or killed. So this is 
literally the Lord's work, or work that carries forward the 
values of the world that care for others. I will put it that 
way. I see it both ways, but folks can see it whatever way they 
choose.
    I am grateful to have had the chance on a bipartisan basis 
to work with colleagues on legislation that helps make possible 
your important work. I am a co-sponsor of the Global Food 
Security Reauthorization Act, which I am hoping we will move 
forward to reauthorize, and in particular it reauthorizes Feed 
the Future and would give us 5 more years of Feed the Future, 
and I am grateful to Senator Isakson for his real leadership on 
that.
    Today or tomorrow, Senator Corker and I will be introducing 
the Food for Peace Modernization Act, which I think is 
important at a time when, as you have testified, millions, tens 
of millions are food insecure, at risk of starvation. It would 
reduce requirements for monetization and for U.S. commodities, 
although retaining a key role for U.S. commodities.
    Could you just briefly discuss the potential savings we 
could expect to see if we passed those kinds of reforms into 
law, and how that would help us reach more people with life-
saving food aid?
    Mr. Nims. Thank you for that question, Senator. While I am 
conversant on and know the bill that you all have been working 
on, I do want to say that the continued interest on the Hill on 
food insecurity is welcomed. We look forward to being able to 
comment on that bill. At this time, the Administration does not 
have a position on it.
    Senator Coons. Got it.
    Mr. Nims. That being said, any efforts to make more 
flexible and more efficient the utilization of humanitarian 
resources is welcome.
    Senator Coons. Let me ask you a different question. The 
budget proposes eliminating Food for Peace--it seems a little 
more directly targeted--which would then focus on international 
disaster assistance to provide emergency food assistance. My 
concern is that eliminating Food for Peace would shift our 
focus to emergency assistance and put less focus on development 
and nutritional support that can help countries and communities 
graduate from aid and develop their own ag-based economies. The 
animating genius of Feed the Future, as you were just 
testifying, is about moving from disaster to resiliency to 
sustainability.
    How can we assure we are addressing hunger at all stages? 
And comment if you feel so inclined and it is appropriate on 
the elimination of Food for Peace.
    Mr. Nims. So, just to be clear and to give a perspective, 
what the Administration's bill does is correct, that the 
current request on funding does eliminate the Title 2 aspect of 
our funding. However, in the IDA section, it would actually 
enable Food for Peace to continue to exist and actually to link 
back to the GFSS. The Emergency Food Security Program actually 
is authorized in that bill as well, which codifies the fact 
that we can use international disaster assistance funds to buy 
food even in the United States, as well as locally, and do our 
voucher programs.
    The Administration's request is through the IDA to support 
those life-saving food programs. It is viewed as a much more 
efficient way to do this.
    Senator Coons. It is viewed based on broad experience as a 
much more efficient way to do this?
    Mr. Nims. Luckily, my job right now in USAID Food for Peace 
is to be able to take the resources allocated to be able to do 
the best that I can to stretch them the furthest. What we have 
seen is that there are places around the world where we need 
U.S. in-kind as well as the flexibility, and with those 
resources we work hard with our partners to be able to do that 
job.
    Senator Coons. Great.
    I recognize we have a third panel and we have an impending 
vote. I have many more questions, as you know, since I have 
harassed you with them overseas as well as here.
    Thank you for your service and for the very real and 
important work that you and everyone with you does.
    Mr. Nims. Thank you for your interest in and continued 
support of our programs.
    Senator Young. Well, thank you again, Mr. Nims, for your 
appearance here today, for your service, and we will look 
forward to our continued work together.
    This concludes the second panel. We will give the witnesses 
for the third panel a few minutes to seat themselves.
    [Recess.]
    Senator Young. Once again, I would like to welcome the 
following three witnesses to our final panel: Dr. Chase Sova, 
Director of Public Policy and Research at the World Food 
Programme USA; Lieutenant General John Castellaw, who served 
with distinction in the U.S. Marine Corps; and Ms. Michelle 
Nunn, President and Chief Executive Officer of CARE USA.
    Now, your full written statements will be included in the 
record. If you could possibly compress your statements as you 
present them here today to 3 minutes, that would be wonderful, 
affording more time for myself and my colleagues to ask 
questions. It would be much appreciated.
    So let us go in the order that I announced.
    Dr. Sova.

 STATEMENT OF CHASE SOVA, PH.D., DIRECTOR OF PUBLIC POLICY AND 
       RESEARCH, WORLD FOOD PROGRAMME USA, WASHINGTON, DC

    Dr. Sova. Thank you, Chairman Young and Ranking Member 
Merkley. It is an absolute pleasure to be here, especially 
alongside this panel. I will do my best to channel David 
Beasley here, representing the World Food Programme USA here.
    My task this afternoon is to share with you the findings 
from a report produced by the World Food Programme USA, 
``Winning the Peace: Hunger and Instability.''
    Let me say this at the outset. On some issues, it takes 
academia to catch up with what we know to be intuitively true, 
and I think that that is accurate here with a link between 
global hunger and instability.
    I think that it is abundantly obvious that war produces 
hunger and poverty, but what we explore in ``Winning the 
Peace'' is the opposite direction of causation, that food 
insecurity can be a driver in itself of instability.
    This report essentially tells the story of 53 peer-reviewed 
academic journal articles, and across those studies researchers 
tested 11 unique drivers of food insecurity, from land 
competition to food price spikes to rainfall variability, and 
successfully linked them to about nine types of instability, 
and this ranged from things like protests all the way up to 
interstate conflict.
    And if I were to succinctly sum up the findings of this 
report, it would be that food insecurity creates desperation 
that manifests in many ways, sometimes violent, but almost 
always destabilizing.
    Sometimes we see this in the form of conflicts between 
herding communities and farmers over increasing land and water 
competition. Other times this comes in the form of food price 
riots, and other times we see food-related instability 
occurring because of extreme events.
    But what is, I think, important here is that ``Winning the 
Peace'' also shows that those drivers of food-related 
instability and those drivers of food insecurity must also be 
met with individual motivations, and those motivations are a 
few things.
    First is grievance. Modern conflicts are almost never 
driven by a single cause, and food insecurity can be a 
contributor. Sometimes it is that grievance. Other times it 
provides an opportunity for underlying disagreements to surface 
or resurface. Sometimes food insecurity is the straw that 
breaks the camel's back in these crises.
    The second really is the economic motivation, and the 
Executive Director spoke about this. It is obvious that in some 
cases, if there is clear economic advantage to resorting to 
unrest or violence, people will be willing to do that if they 
are compensated. So we see that, obviously, with rebel groups 
offering to pay people to participate in these activities, 
often taking advantage of people's desperation.
    The third here is governance, and this is when the state is 
unable or unwilling to prevent food insecurity or they are 
unable to enforce rule of law.
    So those are the three main individual motivators, and we 
can talk more about that. But the findings of ``Winning the 
Peace'' make it clear that there is a direct empirical link 
between food insecurity and global instability. Food security 
is foundational to peace and security, and one of the single 
best investments that we can make in global stability is to 
help people who cannot feed themselves or their families. We 
need to be waging a war on hunger, not its symptoms.
    So two things real quickly here that we can do.
    Ensure robust funding for food assistance accounts. We 
spend $2 trillion every year on military spending, and we were 
not able to meet the $9 billion needs of the World Food 
Programme last year. So, we can do better than that. When all 
you have is a hammer, all you tend to see is nails, and we have 
other things beyond hammers in our portfolio.
    And second, real briefly, I would call on Congress to 
reauthorize the Global Food Security Act, and we can discuss 
that in detail here soon.
    But I will leave it there and look forward to your 
questions regarding the report. Thank you.
    [The prepared statement of Dr. Sova follows:]

                  Prepared Statement of Dr. Chase Sova

    Chairman Young, Ranking Member Merkley, members of the Senate 
Foreign Relations Subcommittee on Multilateral International 
Development, Multilateral Institutions, And International Economic, 
Energy, and Environmental Policy, thank you for convening this hearing 
today on ``Why Food Security Matters.'' Today, I will share key 
findings from a report produced by World Food Program USA, Winning the 
Peace: Hunger and Instability. Released in December 2017, this report--
drawing on 53 peer-reviewed journal articles, the highest standard for 
sharing scientific work--provides among the most comprehensive reviews 
of the link between food insecurity and global instability ever 
produced. While we have long understood the relationship between hunger 
and instability to exist intuitively, research is now catching up. The 
evidence base presented in Winning the Peace clearly shows that food 
insecurity creates desperation that manifests in many ways--sometimes 
violent--but almost always destabilizing. What is universally true 
about modern day conflicts is that they do not respect borders. 
Addressing food insecurity in all its forms and places, is an 
investment in global stability and the security of the United States.
                            a fragile world
    The timing of this hearing--and the Winning the Peace report--is 
critical. As we enter 2018, more than 65 million people have been 
displaced because of violence, conflict and persecution, more than any 
other time since World War II. Meanwhile, the number of hungry people 
is again on the rise, increasing for the first time in over a decade to 
815 million people. Over 60 percent of undernourished people in the 
world--some 489 million--live in countries affected by conflict. Almost 
122 million, or 75 percent, of stunted children under age five live in 
these same places. The world has seen a rise in state fragility in 
recent years. Ten out of the World Food Programme's (WFP) 13 largest 
and most complex emergencies is driven by conflict, and over 80 percent 
of all humanitarian spending today is directed toward man-made 
conflict. By 2030, between half and two-thirds of the world's poor are 
expected to live in states classified as fragile. Fragile states are 
defined by ``the absence or breakdown of a social contract between 
people and their government. Fragile states suffer from deficits of 
institutional capacity and political legitimacy that increase the risk 
of instability and violent conflict and sap the state of its resilience 
to disruptive shocks.'' While a decade ago, the clear majority of 
fragile states were low-income countries, today almost half are middle-
income countries. Roughly 85 percent of countries that were severely 
food insecure in 2016 were also considered ``fragile'' or ``extremely 
fragile.''
    Fragility today is driven in no small part by displacement from 
violence, conflict and persecution, affecting entire regions of the 
world. Most countries hosting refugees and internally displaced people 
today are low-and middle-income countries that are the least equipped 
to cope with such pressures. In fact, developing regions host 85 
percent of global refugees. Uganda, one of the smallest countries in 
sub-Saharan Africa, is hosting more than 1 million refugees from South 
Sudan and other neighboring countries. Meanwhile, Lebanon, a middle-
income country, is hosting more than 1 million Syrian refugees, 
representing 20 percent of the country's population of 4.5 million. The 
average length of refugee displacement is 17 years. These countries are 
providing a global public good, yet face considerable challenges in 
meeting the immediate needs of their own citizens.
    While the state of hunger and fragility continues to evolve, so too 
has the nature of conflict. After declining in the immediate aftermath 
of the Cold War proxy conflicts, the number of conflicts in the world 
is again on the rise. According to a new World Bank and United Nations 
publication, the number of major violent conflicts has tripled since 
2010. The Council on Foreign Relations is currently monitoring 32 
global conflicts affecting U.S. strategic interests. The nation-state--
which has reigned sovereign in the international system since the 17th 
century--has further surrendered its exclusive position as the main 
belligerent in war. Today, domestic conflicts and civil wars are far 
more common than interstate violence. Furthermore, non-state 
conflicts--conflicts in which the state is not involved as a 
combatant--have increased by 125 percent since 2010, and now represent 
the largest category of conflict. Non-state actors, sometimes motivated 
by extremist ideologies and facilitated by improved recruiting 
capability, have occupied an increasingly larger space in the 
international system. A main ``weapon'' of modern conflict is 
information, allowing non-state actors to undermine traditional nation 
states in more consequential ways, attacking their legitimacy rather 
than--or in addition to--their military power. Non-traditional security 
threats like food insecurity can create the conditions for instability. 
Such threats cannot be addressed through military responses alone.
               hunger and instability: the anecdotal base
    The instruments of U.S. foreign policy are sometimes referred to as 
the ``3D's''--defense, diplomacy and development. Within the 
``development'' sphere, the U.S. has increasingly adopted a 
comprehensive approach to global food security. Throughout the history 
of U.S. food assistance and agricultural development programs, the 
United States has acted on a triad of moral, economic and security 
grounds. Moral justification implores the United States to lead with 
its values, relying on the power of its example, rather than the 
example of its power. Ensuring that no child goes hungry is consistent 
with our values and represents the best of who we are as Americans. We 
also invest in global food security for economic benefit. Over 95 
percent of consumers live outside of the United States. In fact, 11 of 
our 15 top trading partners were former recipients of food assistance. 
Food assistance and global agricultural development programs, at their 
core, are investments in the American economy, building a world of 
consumers for American products and stable environments for American 
businesses. Investing in global food security for stability purposes--
the third rationale--has traditionally received less attention. This is 
the ``gap'' that Winning the Peace set out to fill.
    Political and military leaders have long recognized the importance 
of ``smart power'' in the form of foreign assistance, especially food 
assistance and agricultural development. ``Show me a nation that cannot 
feed itself,'' remarked Senator Pat Roberts, ``and I'll show you a 
nation in chaos.'' Perhaps the most widely cited development-security 
reference comes from the current U.S. Secretary of Defense, General 
James Mattis. In Congressional testimony in 2013, when he was serving 
as Commander of U.S. Central Command, the General remarked, ``If you 
don't fund the State Department fully, then I need to buy more 
ammunition.'' Senator Lindsey Graham, meanwhile, has commented in a 
State, Foreign Operations and Related Agencies Appropriations 
Subcommittee markup: ``And we are going to deal with these kids now--
help them get back on their feet--or fight them later.'' Consequently, 
development--and food security, specifically--has become an 
increasingly strong consideration in stabilization and countering 
violent extremism efforts from the United States.
    Food insecurity is both a consequence and a driver of global 
instability. The former--food insecurity as a byproduct of war--is well 
understood. People living in conflict-affected countries are more than 
2.5 times more likely to be undernourished than people living in other 
settings. ``War,'' after all, as famously stated by Paul Collier, ``is 
development in reverse.'' Conflict displaces people, topples markets 
and destroys critical infrastructure, each undermining agricultural 
production and access to food. WFP, in an analysis of food prices in 
conflict-affected countries, Counting the Beans: The True Cost of a 
Plate of Food, estimates that the cost of a simple meal valued at $1.20 
in New York would cost $321.00 in South Sudan. WFP estimates that the 
increased costs of its operations as a result of instability, lack of 
access and poorly functioning food systems amounted to $3.45 billion in 
2015.
    That war, instability and violence adversely affect food security 
is widely documented. However, the other direction of causation is 
decidedly more complex. Given that food insecurity is intimately 
related to other forms and causes of extreme poverty and deprivation, 
the relationship between hunger and instability is most often cited 
anecdotally. The failure to respond adequately to drought conditions, 
for example, is widely accepted as a contributing factor to political 
regime change in Ethiopia both in the 1970s and the 1980s. More 
recently, food price riots contributed to the toppling of governments 
in Haiti and Madagascar in 2007 and 2008 and violent protest in at 
least 40 other countries worldwide. Production shocks and price spikes 
in 2011 were similarly linked to the social unrest of the Arab Spring, 
and the ongoing Syria crisis has clear links to prolonged, historic 
drought conditions affecting food supplies. Meanwhile, the War in 
Darfur has been branded the ``first climate change conflict'' by many 
observers.
                                results
    Yet with rigorous analysis, we can move beyond the anecdotal with 
respect to the relationship between food insecurity and instability. In 
the production of Winning the Peace, the Web of Science academic 
database was accessed--containing 90 million peer-reviewed journal 
articles--to exhaustively catalogue the relevant literature. Our word 
search combinations yielded 3,000 articles with varying degrees of 
proximity to the desired topic. This sample was reduced to 564 priority 
articles describing the relationship in both directions (i.e. 
instability causing food insecurity and food insecurity leading to 
instability), and 53 high-priority articles that explicitly test the 
relationship between food insecurity and instability, in that direction 
of causation. The results of the review demonstrate that 77 percent (41 
of 53) of high-priority studies determine food insecurity and 
instability to be positively correlated, 17 percent (9 of 53) partially 
correlated, and 6 percent (3 of 53) without correlation. Importantly, 
almost 75 percent of these studies were published in the last 5 years, 
in the period between 2012 and 2016. While these 53 studies are 
invaluable on their own, it is when they are combined into a 
comprehensive, collective body of work that results become most useful 
in understanding this complex phenomenon. Across these studies, Winning 
the Peace surfaced 11 unique drivers of food insecurity examined by 
researchers--from land competition and food price spikes to rainfall 
variability--linked to nine separate types of instability--ranging from 
peaceful protest to violent interstate conflict.
    These results demonstrate the complexity of the relationship 
between food insecurity and instability. Modern conflicts are almost 
never driven by a single cause. Sometimes the responses to food 
insecurity can be a more powerful driver of food-related instability 
than shock-events themselves. For example, in an increasingly 
globalized food system, actions taken by governments to alleviate their 
own domestic food insecurity--like reduced import tariffs and export 
restrictions and other market distortions--can inadvertently undermine 
the stability of other nations. The social, political and economic 
drivers of food-related instability also vary widely between contexts. 
Sub-Saharan Africa, for example, is home to a complex colonial past, 
ongoing ethnic strife and persistent poverty--each of which can serve 
as a primary driver of instability that is multiplied by food 
insecurity (i.e. food insecurity as a ``threat multiplier''). These 
results also serve to warn against the dramatic oversimplification that 
``all hungry people are violent and all violent people are hungry.'' 
Food-related instability is not limited to instances of violence, let 
alone violent extremism. Food price protests, for example, among the 
most common manifestations of food-related instability, can be non-
violent and often occur among more affluent populations suffering from 
transitory food insecurity, but not chronic hunger. The world's 
chronically hungry, meanwhile, are disproportionately located in rural 
areas characterized by vast geographies and limited communication 
technology--these populations very often suffer in silence. In short, 
food-related instability occurs in both urban and rural settings; 
manifests in violent and non-violent ways; and occurs across various 
geographies and levels of economic development.
    While local context must always be considered, instances of food-
related instability can be broadly categorized according to three main 
drivers of food insecurity and three interrelated individual 
motivations that prompt people to engage in social unrest or violence. 
Drivers include: (1) agriculture resource competition; (2) market 
failure; and (3) extreme weather. Motivators, meanwhile, include: (1) 
grievance; (2) economic or ``greed;'' and (3) governance. A combination 
of drivers and motivators create the conditions for every instance of 
food-related instability to occur.
                  drivers of food-related instability
Agricultural Resource Competition
    The first driver is agricultural resource competition. In the last 
half century, some 40 percent of civil wars have been linked to natural 
resource competition. Across much of the developing world, and 
especially sub-Saharan Africa, agriculture constitutes a large 
percentage of total Gross Domestic Product (GDP) and employs up to 80 
percent of the rural population. When permanent resources like land and 
water (i.e. lakes, rivers and aquifers) are inadequate to sustain 
agricultural livelihoods, the risk of instability rises markedly. This 
commonly manifests in conflicts between pastoral and sedentary 
agricultural communities, but also through land grabs, inadequate land 
tenure laws and state-run land redistribution measures, among others. 
Resource competition is exacerbated by increased human migration, 
especially between ethnically diverse communities.
    Land competition has long manifested in conflicts between pastoral 
and sedentary communities. Nomadic herders traditionally operate in 
territory unfit for sedentary agricultural production. Pastoralists 
rely on their mobility as a coping mechanism against short-term weather 
and market variations. Yet as long-term climatic conditions deteriorate 
and lands become further degraded, pastoralists--especially in the 
African Sahel--are encroaching on agricultural lands where rains are 
more reliable and temperatures more suitable for livestock production. 
Widespread drought erodes nomadic adaptation strategies like clan-based 
support since a large swath of the population is affected 
simultaneously. The relationship between resource competition and 
migration is mutually reinforcing. Migration can place new stresses on 
rural economies and resources, and resource competition can, in turn, 
lead to increased migration. Recent research with migrants from East 
and West Africa, Asia and the Middle East by WFP's Vulnerability 
Analysis and Mapping Unit shows that for every 1 percent increase in 
food insecurity, there is a 2 percent rise in migration.
    In a salient example of agricultural resource competition, in the 
decades leading up to the 2003 outbreak of the war in Darfur, the Sahel 
region of northern Sudan had witnessed the Sahara Desert advance 
southward by almost a mile each year and a decrease in annual median 
rainfall of 15 to 30 percent. These long-term climatic trends had 
significant consequences for Sudan's two predominant--and sometimes 
competing--agricultural systems: Smallholder farmers relying on rain-
fed production and nomadic pastoralists. Agriculturalists in Sudan are 
predominantly ethno-African, while pastoralists are disproportionately 
of Arab ethnicity. These factors led then U.N. Secretary General Ban 
Ki-moon to comment in 2007, ``Almost invariably, we discuss Darfur in a 
convenient military and political shorthand--an ethnic conflict pitting 
Arab militias against black rebels and farmers. Look to its roots, 
though, and you discover a more complex dynamic. Amid the diverse 
social and political causes, the Darfur conflict began as an ecological 
crisis.'' Importantly, the risk of agricultural resource-based 
instability is magnified with each consecutive growing season lost.
    Resource competition is not always driven by natural phenomenon, 
however. Proposed large-scale land acquisitions by Daewoo, for example, 
led to the toppling of the government in Madagascar in 2009, currently 
the first example of an agricultural ``land grab'' contributing 
directly to political instability. Similarly, re-distributional land 
reform has been historically responsible for considerable unrest, with 
at least one study in Winning the Peace showing that the risk of coup 
rises considerably when policy changes like land reform are introduced. 
Notable examples include Soviet agricultural collectivization and land 
reform in China's ``Great Leap Forward,'' but land reform-related 
unrest has also been documented in North Korea, Uganda, South Africa, 
Zimbabwe, Cambodia and Guatemala, among others. Finally, while we 
intuitively think of social and political unrest resulting from 
agricultural resource scarcity, the likelihood and duration of conflict 
can be partially dependent on the abundance of resources. Supplying a 
successful rebellion is a resource-intensive process, and even if 
rebels have the motive to fight, they also require the means; after 
all, ``an army marches on its stomach.'' Several authors in this review 
identified resource abundance as a condition for certain types of 
conflict onset and duration.
Market Failure
    The second category of food-related instability is market failure. 
The global food price spikes of 2007-2008 and 2011 have increased the 
profile of this form of food-related instability, especially food price 
riots. Between 2000 and 2008, global wheat prices tripled and corn 
prices doubled, accelerating rapidly in late 2007 and leading to social 
unrest in at least 40 developing and middle-income countries in what 
has been termed the ``silent tsunami.'' Food price spikes are widely 
recognized as leading to regime change in Haiti and Madagascar during 
this period. A second wave of price spikes owing to agricultural 
commodity production shocks on the Eurasian continent in 2011 has also 
been linked to the rise of the Arab Spring in the Middle East. The 
relationship was thrust into the media with the dramatic protest of 
Mohammed Bouazizi, a vegetable vendor in Tunisia whose immolation 
epitomized the desperation felt by many in the region and served as a 
catalyst for wider unrest. Food riots are an intuitive result of 
commodity price fluctuations given the relative economic inelasticity 
of food--there is no substitute for food, even when prices are high. 
Yet food price spikes and social unrest are mediated by a variety of 
factors, including import dependence, cultural significance of the 
affected food commodities and political regime type, among others.
    Food price riots, for example, are more likely to occur in urban 
areas of countries with high reliance on food imports. Riots in 
response to price shocks are enabled by the high density of people 
living in urban centers with adequate channels of communication that 
allow for mass organization--this is often referred to as the 
``contagion effect.'' The Middle East and North Africa (MENA) imports 
over half of the food it consumes, the highest import dependency on the 
planet. That production shortages in one part of the world can affect 
social and political instability in another is what Sternberg refers to 
as the ``globalization of drought.'' In the direct aftermath of the 
2007-2008 food price crisis, 31 percent of 105 surveyed countries put 
in place export restrictions and half reduced food import taxes. Foods 
that tend to have cultural significance, especially those consumed by 
the rich and the poor alike, are also more likely to incite widespread 
unrest. This is why staple products of national significance--e.g. the 
``pasta riots'' in Italy or ``tortilla riots'' in Mexico--often lend 
their names to social unrest. In the Middle East, bread has 
considerable cultural significance across social strata, meaning the 
rise in global wheat prices (and high import reliance in MENA) was 
especially predictive of conflict in this setting. Political regime 
type (i.e. democracy versus autocracy) also plays an important role in 
mediating the relationship between food price and social unrest. Short-
term unrest is more likely to occur in democracies with permissive 
political opportunity structures that allow for popular uprising and 
government protest. This demonstrates the point that not all 
instability is bad, especially if it leads to meaningful social change. 
While the likelihood of demonstrations and riots is reduced in 
oppressive regimes, more organized persistent forms of conflict are 
more likely to occur in these settings.
    Ultimately, the link between food price shocks and instability is 
dependent upon the country, the level of import dependence, the 
perceived reason for the price increase, the agricultural commodity, 
the model of government and the level of pre-existing social grievance, 
among other considerations. Even so, while the conditions that 
determine the relationship between food prices and stability are 
complex, the dynamic is not devoid of causation. When the globalization 
of crises meets with burgeoning urbanization and the contagion effect 
facilitated by widespread access to mass communication, the potential 
for conflict rises considerably.
Extreme weather
    The third category of food-related instability is extreme weather. 
This driver underpins agriculture resource competition and market 
failure, but represents a sizeable body of literature in and of itself. 
Agriculture is an obvious interlocutor between climate and conflict 
given that the sector is strongly affected by climatological conditions 
like rainfall variations and temperature fluctuations. It is estimated 
that 80 percent of agricultural production in developing countries does 
not employ any form of irrigation. Furthermore, the impacts of climate 
change will be most severe in low-latitude countries in tropical, 
equatorial environments, disproportionately affecting the Global South.
    Extreme weather events as a driver of food-related instability is 
apparent in a variety of modern-day conflicts. In the lead-up to the 
civil war in Syria, for example, the country experienced ``the worst 
long-term drought and most severe set of crop failures since 
agricultural civilizations began in the Fertile Crescent many millennia 
ago.'' In the 3-year period from 2006 to 2009, more than 1 million 
farmers were affected by crop loss. This long-term drought--combined 
with government policies on well-water pumping--placed unsustainable 
pressure on groundwater aquifers. As a consequence, the southwestern 
city of Dara'a, situated in one of the traditionally fertile areas of 
Syria, saw a large influx of migrants and was one of the first sites of 
social unrest in the country in 2011. Meanwhile, the rise of Boko Haram 
in northern Nigeria has been linked by several authors to prolonged 
drought conditions in the Lake Chad Basin area of West Africa. In 
recent decades, the water surface of Lake Chad has shrunk by over 90 
percent compared with its size in the 1960s, contributing to a loss of 
livelihoods and threatening food security in the region.
    Since 2010, the United States has recognized climate change as a 
``threat-multiplier'' in its Quadrennial Defense Review. Meanwhile, the 
United Nations estimates that approximately 1.3 billion people in the 
world also live on ecologically fragile land. While the defining 
challenge facing the humanitarian system today is the proliferation of 
violent conflict, each year some 22.5 million people are displaced by 
climate-related extreme events, in part because of inadequate 
responses, a lack of safety net protection systems or insufficient 
investments in resilience-building and disaster risk reduction. It is 
estimated that climate change could force as many as 122 million people 
into poverty by 2030.
Motivators of food-related instability
    While it is one thing to correlate two variables, it is entirely 
another to identify the individual rationale for observed human 
behavior. Truly understanding the hunger-instability nexus means first 
answering the fundamental question: Why do food-insecure people resort 
to violence or other forms of social unrest? In the food-related 
instability literature, several causal mechanisms are identified, often 
summarized as ``grievance, economic, or governance'' motivations. While 
individual motivations for involvement in food-related social unrest 
and violence vary between contexts and people, they generally fall into 
these interrelated categories.
    First, the ``grievance'' motivation refers to actions motivated by 
a perceived injustice. The grievance motivation is especially potent 
when food insecurity provides an impetus for the airing of longstanding 
societal divisions, allowing a population to cleave along pre-
established lines. When food insecurity ``breaks the camel's back,'' 
exacerbating longstanding tensions, the grievance motivation is at 
play. A food-related instability event--like price riots or pastoral 
encroachment on sedentary agriculturalists--provides an opportunity for 
groups to settle preexisting conflicts or disagreements. Research by 
Mercy Corps with youth in Afghanistan, Colombia and Somalia found that 
experiences of injustice, like discrimination and corruption, were 
among the strongest drivers of conflict. It is also true that one of 
the strongest indicators of the likelihood of violent conflict is a 
history of it. Over 40 percent of countries that have experienced civil 
war will see it again within a decade. This is sometimes referred to as 
the ``violence trap.''
    Second, the economic motivation occurs when there is a clear 
economic advantage to resorting to violence. This motivation is often 
reduced to a simplified equation: Does engaging in violent conflict or 
revolt yield a higher economic and social return than the status quo 
(i.e. is there a compelling opportunity cost of inaction)? This often 
plays out with rebel groups paying wages--or offering food--as a 
recruitment incentive, effectively taking advantage of the desperation 
felt by those unable to feed themselves or their families. Reflecting 
this commonly held view, former U.S. Senator Richard Lugar remarked, 
``Hungry people are desperate people and desperation can sow the seeds 
of radicalism.'' In other words, that there is an important distinction 
between involvement with an armed group and being an ``extremist.'' In 
Somalia in 2011, while denying access to international humanitarian 
agencies, al-Shabaab was reported to offer cash-payments or even 
salaries in exchange for enlistment to its movement. In fact, former 
militants describe al-Shabaab enlistment as a commercial venture, not 
an ideological one. Meanwhile, in Colombia, the FARC provided 
protection to local farmers and guaranteed a minimum price for a 
variety of agricultural products. This same phenomenon has played out 
in Syria, northeast Nigeria, and Sudan, among other settings.
    Third, the governance motivation occurs in the context of 
unachieved expectations or a failure of the state to prevent food 
insecurity. Additionally, when the state's ability to enforce rule-of-
law is diminished or non-existent, it is easier for economic or 
grievance-motivated individuals to make the decision to engage in 
conflict without fear of punitive repercussion. Many parts of the 
developing world, in particular, are home to huge tracks of ungoverned, 
lawless spaces existing outside of the policing arm of the state. These 
places are simultaneously unreached by social services and lack 
investments in critical infrastructure. In agricultural-based 
economies, the food production shocks that can initiate rebellion 
simultaneously reduce the state's ability to respond appropriately 
through a loss in the agricultural tax base. The governance motivation 
is further reinforced by interviews conducted by the United Nations 
Development Programme with 495 individuals that voluntarily joined 
extremist groups in Africa. The results of their analysis demonstrate 
that while religious and economic motivators are strong drivers of 
recruitment, a lack of trust in government (e.g. police, politicians or 
the military) is the single strongest driver, especially when a family 
or friend is killed or arrested by the government.
                           severing the link
    Since the drivers of food insecurity and instability are many--
ranging from calorie availability to more structural issues around land 
tenure and livelihood opportunities--disrupting the link between food 
insecurity and instability requires a diverse toolbox of integrated 
actions. In other words, we must meet complexity with complexity. In 
practice, this means investing more heavily in development and 
humanitarian activities (i.e. meeting immediate lifesaving needs); 
implementing comprehensive food security programs that address the many 
faces of hunger; and pursuing improved communication between defense, 
diplomacy and development efforts so as to break the cycle and vicious 
feedback loop between hunger and instability.
    First, we must meet the immediate lifesaving needs of those 
suffering from hunger as the result of conflict and natural disasters. 
Food assistance and agricultural development programs can be especially 
effective tools in preventing extremism from taking root. We must 
respond to humanitarian crises before they become something else 
entirely. At present, the global community is simply not meeting the 
immediate lifesaving and stability-producing needs of vulnerable people 
around the world. The United Nations Office for the Coordination of 
Humanitarian Affairs (OCHA) consolidated appeal--the most comprehensive 
of assessment of annual humanitarian funding needs--increased by over 
62 percent between 2011 and 2018, from $8.5 billion to $22.5 billion, 
with the 2018 appeal becoming the largest in history. Needs are growing 
faster than contributions. On average over the past decade, OCHA 
appeals have been funded at only 64 percent, leaving many vulnerable 
populations without assistance. Specific to emergency food assistance, 
WFP's 2017 operational requirements were funded at only 76 percent 
(approximately $6.8 of $9 billion). In analysis ranging back to 2010, 
WFP has never had the entirety of its operational needs met by donors.
    Second, we must implement comprehensive global food security 
programming. There are several food-specific strategies that can break 
the food insecurity-instability relationship. The response has to be 
comprehensive, commensurate with the complexities of food-related 
instability and addressing emergency food assistance, agricultural 
development, child nutrition and social safety net systems. U.S. 
assistance programs should focus increasingly on the special needs of 
conflict-affected fragile states. U.S. humanitarian assistance has 
traditionally taken a lead role in U.S. response to the needs of 
vulnerable people in conflict situations. U.S. development aid, 
however, has not always been sufficiently available to fragile states 
seeking long-term solutions to their underlying food security and 
development challenges. Only when immediate humanitarian assistance is 
combined with appropriate medium-to long-term development programs can 
we build resilience and reduce the risk of future state fragility and 
conflict. The U.S. has made significant strides in this regard with the 
passage of the Global Food Security Act (GFSA) and associated strategy. 
The GFSA is up for reauthorization in 2018, and ensuring that this 
important legislation continues to guide U.S. food security policy 
should remain a top priority for Congress.
    Emergency food assistance provides immediate relief from the 
impacts of manmade and natural crises, serving as the last line of 
lifesaving assistance to those in need and decreasing the desperation 
felt by people suffering from extreme hunger. When administered 
effectively, food assistance can reduce food price volatility and 
uncertainty, building trust in food systems; can provide livelihood 
opportunities that increase the ``cost'' of engaging in violent 
conflict; and can be effective tools in the battle for hearts and minds 
(e.g. U.S. food aid is branded ``From the American People''). Food 
assistance has also been successfully deployed as a means to entice 
combatants to lay down their arms and reintegrate into society.
    Food assistance alone cannot prevent conflict or the re-emergence 
of conflict once peace has been achieved. Almost half of the world's 
hungry are subsistence farmers. GDP growth in the agricultural sector 
is more than twice as effective at reducing extreme hunger and poverty 
than growth in other sectors in developing countries. Investments in 
subsistence farmers--especially women--can have a deep impact in 
reducing hunger and extreme poverty and improving self-sufficiency, 
with positive spillover effects into the wider economy. Agricultural 
development, for its outsized effect on economic growth, can be 
especially effective at deterring recruitment for violent uprisings and 
delivering peace dividends.
    Early childhood nutrition can have lifelong effects on health and 
prosperity. Lacking proper nutrition at an early age, physical growth 
and intellectual development can be permanently damaged, leading to 
long-term consequences on individual achievement as well as broader 
economic growth and stability. More than 50 percent of those displaced 
from their countries by conflict, violence and persecution are under 
the age of 18. Children who do not receive adequate nutrition face 
physical, emotional and economic ``stunting'' that plagues them 
throughout their lives and makes them more prone to violence and 
aggression.
    School meals are a particularly effective way of ensuring children 
receive proper nutrition and social protections. One of the strongest 
incentives for sending a child to school is the promise of a school 
meal. These programs have been demonstrated to increase school 
enrollment and attendance (especially for girls), and improve 
nutrition, health and cognitive development of children. The U.S. 
Department of Agriculture is WFP's largest multi-year donor to school 
meals programs, providing on average $80 million per year through the 
McGovern-Dole International Food for Education and Child Nutrition 
Program. Through this support, WFP reached 2,260,791 children in 
FY2016. Cost benefit analysis conducted in over 15 countries where WFP 
is providing school meals demonstrates that every dollar invested in 
these programs yields a return of $3 to $10 dollars from improved 
education and health outcomes. When food for school meals programs is 
purchased from local farmers (i.e. home-grown school feeding), this has 
the added benefit of supporting local agriculture and establishing 
supply chains that can serve as an exit strategy for donor assistance.
    School meals are just one form of safety net. Safety net systems--
the predictable transfer of basic commodities, resources or services to 
poor or vulnerable populations--protect against societal shocks and 
episodic bouts of food insecurity, allowing people to preserve 
productive assets and preventing vulnerable populations from further 
descending into extreme poverty. ``Food-for-work'' asset-building 
initiatives have been promoted as effective deterrents of terrorist 
recruitment, providing viable livelihood opportunities for vulnerable 
populations. Food and cash transfers have also proved successful in 
deterring riots, as evidenced in the 2007-2008 food price crisis where 
most affected countries that had cash-or food-based social safety nets 
in place avoided widespread food riots.
    Third, while we should pursue improved communication between 
defense, diplomacy and development actors, we must also recognize that 
they have distinct roles to play. The ``firewall'' between the military 
and humanitarians, in particular, exists to ensure humanitarian 
worker's neutrality and safety and ability to respond to objective 
need--they must not be seen as an extension of U.S. political or 
military force. Acknowledging the security dividends of humanitarian 
assistance does not simultaneously imply that we abandon our core 
principles for providing international assistance based on objective 
need, neutrality and impartiality. In the U.S. and beyond, the 
rationale for supporting food assistance programs has been 
predominantly based on moral and economic considerations. Acknowledging 
the security dimension of food assistance does not elevate this 
rationale above others, but is simply a recognition of food 
insecurity's contribution to global instability and the security of all 
nations.
    The ``3D's'' of U.S. foreign policy must, at the very least, learn 
to speak the same language. Defense, diplomacy and development are too 
often perceived as iterative steps--one to be followed after another. 
When diplomacy fails, we deploy kinetic force, at which point 
development actors are tasked with rebuilding. While we have often said 
that ``today's humanitarian crises do not have purely humanitarian 
solutions,'' it can also be said that today's military engagements do 
not have purely military or kinetic solutions. As noted in a 2012 USAID 
report, Frontiers in Development, ``the security challenges posed by 
fragile and failing states and the deprivation that accompanies them 
makes it all but inevitable that soldiers and humanitarians, diplomats 
and development experts will find themselves operating in increasing 
proximity to one another, often addressing the same issues with 
different tools and for complementary purposes.'' There is evidence 
that this is beginning to occur. USAID has humanitarian and development 
advisors at each of the U.S.'s six Geographic Combatant Command 
centers. Furthermore, an institutional structure is being established 
with cooperation between U.S. Department of State's Bureau of Conflict 
and Stabilization Operations, USAID's Office of Civilian-military 
Cooperation, and the Joint Chiefs of Staff's Civil Affairs Units. These 
steps are important and should be further shepherded. It is imperative 
that we see food security as fundamental to peace and security. One of 
the best investments we can make in peace and security is to help 
people who cannot feed themselves or their families.
    Thank you Chairman Young and Ranking Member Merkley for the 
opportunity to testify on this important topic. I look forward to 
answering your questions.

    Senator Young. Thank you, Dr. Sova.
    Lieutenant General Castellaw.

   STATEMENT OF LIEUTENANT GENERAL (RETIRED) JOHN CASTELLAW, 
         UNITED STATES MARINE CORPS, CROCKETT MILLS, TN

    General Castellaw. Thank you, Mr. Chairman, Ranking Member 
Merkley. I will try to reduce this to a frag order, which I am 
sure you are familiar with, Chairman Young.
    If I were to summarize my career, I would say that I was in 
the post-Vietnam generation that included Jim Mattis, and what 
we did was we saw the demise eventually of the Soviet Union and 
symmetrical warfare, and what we saw was asymmetrical warfare, 
which we are dealing with now. I have seen this in the Horn of 
Africa, in West Africa, the Lake Chad Basin, in the Asia 
Pacific.
    It is clear that food security should be an element of our 
national security. And when we talk about diplomacy, 
development, and defense of our military, we should look at how 
we balance our expenditures, our allocation of resources, how 
we take a strategy that puts all this together.
    The number, the piece of information that is most important 
to me, comes in the casualty figures. Ten thousand Americans 
have been killed in the global war on terror. Over 50,000 have 
been wounded. They constitute the most precious treasure we 
have in the United States, which is the blood of the men and 
women who serve. Anything we can do that eliminates the 
requirement for them to do what they are willing to do, which 
is give up their lives, is worth the money. To think about 
cutting the international development budget by 30 percent, I 
would submit to you, is unacceptable.
    One of the great things--and I have had the opportunity 
over the last day or two to talk to a number of senators and 
Administration officials--is the fact that now we are starting 
to see Jim Mattis at Defense, hopefully we will see the new 
Secretary of State and then people like Mark Green at AID come 
together, sit down, look at what the situation is, and together 
come up with a strategy that includes food security and 
allocates the resources accordingly.
    Thank you very much. I look forward to your questions.
    [The prepared statement of General Castellaw follows:]

  Prepared Statement of Lieutenant General John Castellaw, USMC (Ret.)

    Chairman Young, Ranking Member Merkley, thank you for the 
opportunity to testify today about the importance of global food 
security to our national security, and for your strong support for 
America's development and diplomacy programs.
           food security is critical to our national security
    The United States faces many threats to our National Security. 
These threats include continuing wars with extremist elements such as 
ISIS and potential wars with rogue state North Korea or regional 
nuclear power Iran. The heated economic and diplomatic competition with 
Russia and a surging China could spiral out of control. Concurrently, 
we face threats to our future security posed by growing civil strife, 
famine, and refugee and migration challenges which create incubators 
for extremist and anti-American government factions. Our response 
cannot be one dimensional but instead must be nuanced and 
comprehensive, employing ``hard'' as well as ``soft'' power in a 
National Security Strategy combining all elements of National Power, 
including a Food Security Strategy.
    An American Food Security Strategy is an imperative factor in 
reducing the multiple threats impacting our National wellbeing. Recent 
history has shown that reliable food supplies and stable prices produce 
more stable and secure countries. Conversely, food insecurity, 
particularly in poorer countries, can lead to instability, unrest, and 
violence. Food insecurity drives mass migration around the world from 
the Middle East, to Africa, to Southeast Asia, destabilizing 
neighboring populations, generating conflicts, and threatening our own 
security by disrupting our economic, military, and diplomatic 
relationships. Food system shocks from extreme food-price volatility 
can be correlated with protests and riots. Food price related protests 
toppled governments in Haiti and Madagascar in 2007 and 2008. In 2010 
and in 2011, food prices and grievances related to food policy were one 
of the major drivers of the Arab Spring uprisings.
    These conclusions are based on my decades of experience while 
serving as a Marine around the world and from a lifetime as a steward 
of the soil on my family farm in Tennessee. I see food security 
strategy in military terms as either being ``defensive'' or 
``offensive''. ``Defensive'' includes those actions we take to protect 
our agricultural infrastructure including crops, livestock and the food 
chain here in the United States. Conversely, the ``Offensive'' side of 
food security takes the initiative to deal with food security issues 
overseas and this is where I will spend most of my time today.
    There is a good reason for our success on the ``defensive'' here at 
home in ensuring our own food security. As my good friend and former 
Tennessee Deputy Agriculture Commissioner Louis Buck points out to me, 
American agriculture has always been about public/private enterprise. 
The Morrill Act of 1862--showing our Country's foresight and confidence 
in the future even in the dark days of our Civil War--created our Land 
Grant University model of teaching, research and extension. And equally 
importantly, we have a private sector that values individual 
initiative, unleashing an unparalleled vitality. With that vitality 
driving innovation, our farmers and ranchers leverage the expertise and 
information from the public sector to manage risks and seek profits 
from deployed capital. But above all, American farmers and ranchers are 
our ``citizen soldiers'' on the front lines here at home fighting to 
guarantee our food security.
    America is also blessed with fertile soil, water availability, 
moderate climate, and the advanced technology to successfully utilize 
our abundance. Whether I walk the corn fields of Indiana or the cotton 
fields of Tennessee, I see agricultural technology in use that is 
amazing. Soon after I retired from the Marines and came home to the 
family farm, I climbed into the cab of a self-propelled sprayer. 
Settling into the seat was like strapping into the cockpit of one of 
the aircraft I flew, except the sprayer had more computing power and 
better data links. All these factors, public and private, natural and 
manmade, hard work and innovation, combine to provide the American 
people with the widest choices in the world of wholesome foods to eat 
and clothes to wear.
              enormous challenges face us around the world
    But sadly, the world now faces the largest humanitarian crisis 
since the end of the World War II, with over 800 million hungry, 500 
million of them in countries in conflict, 65 million displaced from 
their homes, and more than 30 million people living on the brink of 
starvation. For the first time in a decade, deteriorating humanitarian 
conditions have led to an increase in the number of hungry people in 
the world. The conditions are going to get worse with total world 
population growing to over 10 billion, and with a ``youth bulge'' in 
the most fragile and food insecure countries. These conditions lead to 
hopelessness and despair among the most at risk populations.
    Senators, during my military career I have seen those looks of 
hopelessness and despair in the faces of men and women scavenging in 
piles of garbage to find food for their families. These daily personal 
struggles to survive do create the incubators for terrorists and their 
supporters. According to the Office of the Director of National 
Intelligence (ODNI), ``the overall risk of food insecurity in many 
countries of strategic importance to the United States will increase 
during the next 10 years . . .. In some countries, declining food 
security will almost certainly contribute to social disruptions and 
political instability.''
    It was not that long ago, in our own country, that we had armed 
clashes over grazing rights and competition for water between crop and 
livestock communities. In fragile and conflict affected states, access 
to water, pasture, and agricultural land is often the spark that 
ignites conflicts between ethnic groups, tribes and clans. The lack of 
farming income, in turn, forces young men off the land and into urban 
slums, where their alienation makes them willing recruits for extremist 
organizations. Food insecurity is also a lever for those same extremist 
groups to exert control over the population and gain financial 
advantage from their control of food resources. I saw this in the early 
90s during the conflict in Bosnia where groups with guns exercised 
power by seizing food supplies and controlling the distribution to the 
population.
    We can see this in play today in such places as the Lake Chad Basin 
where a growing conflict between cattle herders, farmers, and fishermen 
competing for ever decreasing water resources brought on by climate 
change and misuse of water sources is providing openings for Boko Haram 
to establish themselves. I recently flew over Lake Chad and the 
decrease in lake's area from the last time I visited is more than 
alarming.
    Executives surveyed at the World Economic Forum highlighted in 
their 2016 Global Risk Assessment the likely impact of climate change 
on food security and noted that the ``simmering tensions between social 
groups are more likely to boil over into community violence. Armed non-
state actors, including insurgencies and terrorist groups, will be able 
to leverage this new source of insecurity (stresses on water and food) 
as an additional grievance on which to build their narratives, finding 
new recruits among those made destitute.''
    This is an especially serious issue in the Middle East and North 
Africa. The Center for Climate and Security, a non-partisan think tank 
of national security and military experts--where I serve as a member of 
its Advisory Board--identified a significant connection among climate 
change, drought, natural resource mismanagement, food security and 
conflict in the region in its seminal ``Arab Spring and Climate 
Change'' report. In that region, a ``Catch 22'' phenomenon is 
occurring. Egypt, for example--heavily dependent on the global wheat 
market--is highly vulnerable to bread price spikes that result from 
countries like China panic-buying in the wake of their wheat harvests 
being devastated by extreme weather events (and countries like Russia 
cutting off wheat exports for the same reasons). Other nations in the 
region, like Syria under Assad before the outbreak of civil war, have 
tried to grow wheat locally and unsustainably, to avoid Egypt's 
dilemma. But that hasn't worked.
    Coupled with climate change-exacerbated extreme drought from 2007-
2010, Syria's agricultural practices (and malpractices) decimated the 
country's water table, left millions of Syrians ``extremely food 
insecure,'' and displaced around 1.5 million farmers and herders, 
heightening the likelihood of tension and conflict in the country.
               empowering all our national security tools
    I grew up in the Marine Corps with now Defense Secretary Jim 
Mattis; there is no one in whom I have more personal confidence and 
trust as a steward of our Nation's security than him. He has time and 
again forcefully advocated using the totality of American power--
diplomacy, development, and military--to prevent conflicts and ensure 
our security.
    Another fellow Marine, General Joe Dunford, Chairman of the Joint 
Chief of the Staff sets the tone for those continuing to serve in 
uniform; he has said, ``There's no challenge that I'm currently dealing 
with that the primary factors in our success won't be diplomatic, 
economic. And certainly, even in our campaign in Iraq and Syria, USAID 
plays a critical role in stabilization, to secure the gains that our 
partners are making on the ground in Syria and Iraq, as one example. 
But, every place I've been over the past 15 or 16 years, in Iraq and 
Afghanistan, a key partner has been USAID.''
    Our other military leaders are following their lead. There is a 
strong consensus that America's civilian programs--as key interagency 
partners--must not only be adequately resourced but also empowered to 
more effectively engage private sector expertise and investment. 
Military officers are speaking up in support of funding for the State 
Department and USAID because they recognize that the military alone is 
not sufficient to ensure our national security, sustain global economic 
growth, and tackle development challenges like the growing food 
insecurity.
    The 2016 Rand Corporation Report: ``Lessons from Afghanistan'' 
provided lessons learned on the Pentagon's Task Force on Business and 
Stability Operations and noted: ``For an innovative, entrepreneurial 
organization within government, success is about finding a delicate 
balance--between freedom to take risks and necessary oversight, between 
quick-turn project delivery and long-term development outcomes, and 
between pursuing a disruptive business model and remaining a team 
player. Thus, we recommend that the U.S. policy community plan for 
future organizational solutions to address the lessons from 
Afghanistan.'' In the words that a Marine would use, we need all our 
national security partners empowered to be more agile with an improved 
capability to ``improvise, adapt, and overcome'' the challenges faced.
    In addition to our nation's highest-ranking officers currently 
serving, I joined more than 150 retired three- and four-star flag and 
general officers--all members of the U.S. Global Leadership Coalition's 
National Security Advisory Council--in writing to Congress to urge 
support for the International Affairs Budget and renewed American 
global leadership. For us the bottom line is our diplomatic and 
development professionals, public and private, have the expertise and 
resources to help tackle the root causes of conflict--by empowering 
smallholder farmers to increase their productivity, improving maternal 
and child health, and helping rebuild dysfunctional economies among 
other important efforts.
    And it is not just about employing our own national programs, it is 
also about participating as a member of the global community. I 
recently traveled with a U.N. Foundation group to observe the United 
Nations employment of hard and soft power against a simmering conflict 
in the Central African Republic (CAR). There the combination of 
international development programs (soft power) as well as military 
force (hard power) is addressing the root causes (population, climate 
change, extremism, food insecurity) of conflict. Support by the United 
States of such world community efforts reduces the need to deploy our 
own military forces. We must remember that American Military 
interventions require the expenditure of our most precious national 
resource--the blood of those who serve.
          food security advances america's economic interests
    Food security is critical to reducing conflict, but it is also 
vital to establishing economic security. Almost no country--from South 
Korea to India to the United States--has achieved rapid economic 
development without first investing in agricultural development. And we 
know from our experience that smallholder farmers can become productive 
and escape poverty once they gain access to education, markets, and 
technologies.
    That is also my personal story--in my family's history this step 
enabled my grandparents and parents to rise from a lineage of small-
acreage subsistence farmers to the American Middle Class, to feed and 
educate our family, and to live with dignity. American and world 
efforts to tackle global poverty have been successful. Since 1990, 
global extreme poverty has been more than halved with over a billion 
people lifted out of poverty.
    These efforts pay dividends for the U.S. economy. Today, 11 of our 
top 15 export markets, including Germany, Japan and South Korea, are 
former recipients of U.S. foreign assistance, as well as being among 
our staunchest allies. Many of the fastest growing economies reside in 
the developing world and those markets comprise almost 60 percent of 
global GDP, a threefold increase since 1990. These developing countries 
also account for more than half of all U.S. agricultural exports.
    In 2016, the U.S. exported nearly $135 billion of agricultural 
products supporting 1.1 million full-time American jobs, making these 
developing markets an important source of our jobs and economic growth. 
When our economy is strong, it amplifies the awesome power of our 
military might while deterring our enemies from undermining America's 
national security and economic interests abroad.
          maintain u.s. leadership in agricultural development
    Today, America is well positioned to maintain our global leadership 
in the fight against hunger and poverty, ultimately helping to bring 
much needed peace and stability to a volatile world. To achieve this 
goal, the United States should sustain America's focus and investment 
in agricultural development and do it in the right way over the long 
term.
    While serving in the Pacific, I traveled to the island of Ponape in 
the Federated Republic of Micronesia, formerly the Caroline Islands in 
the South Pacific, to attend, as the U.S. military representative, the 
inauguration of their new President. These islands were the scene of 
much combat in World War II and afterward the United States was heavily 
involved in reconstruction and development. However, the people were 
soon plagued with diabetes and other food related health issues. When I 
asked the reason, the American consul replied that instead of helping 
the people develop a healthy, sustainable agricultural and fishing-
based economy, we taught them how to open cans of imported food which 
created massive unintended consequences.
    We know that a robust agricultural support system requires constant 
``care and feeding.'' Failure to establish and maintain such 
infrastructure and services as irrigation systems, soil conservation 
programs, storage and transportation facilities, and research and 
extension services, because of threats or lack of funding, can 
exacerbate food insecurity, increase instability, and intensify 
conflict.
    As another expert in business development, Gerry Brown, who served 
on the Department of Defense's Task Force on Business and Stability 
Operations with Louis Buck, notes, farming is not just a profession but 
a way of life. Part of fighting and winning against violent extremists 
is convincing the local population that the government cares about, and 
will defend, the local population and their homes and possessions from 
their enemies. For example, crops such as dates in Iraq and raisins in 
Afghanistan have significance beyond the income they generate for the 
farmers. They are national symbols and restoring and protecting them 
can convince local populations that the government has their best 
interests at heart.
    I also spent some time In Djibouti, on the Horn of Africa, where I 
saw an example of how infrastructure, even the most basic, can have a 
major impact on reducing the conditions for insurgency. We were in 
heavy combat in Afghanistan at the time with a limited amount of forces 
available for deployment to the Horn requiring an Economy of Force 
operation there. One of the most effective military task forces, at the 
least cost, I have seen employed was one composed of a well drilling 
attachment and a veterinarian team. The task force operations began by 
drilling a well closer to the village reducing the time and effort 
required for the women of the village to obtain water for their 
families. The veterinarian vaccinated the goats reducing disease and 
the mortality rate while increasing the health and value of the herds. 
The combination of easier access to water and an increase in the 
economic base generated confidence in the government reducing the 
conditions for building an insurgency.
    Continuing in this vein, let me talk about ``Feed the Future'', a 
current program that is contributing to our national security. It is 
America's global hunger and food security initiative and was signed 
into law with widespread bipartisan support from Congress. It has 
helped smallholder farmers increase production and productivity through 
country-led, results-based strategies. Feed the Future has helped lift 
more than 9 million people out of poverty and prevented the lack of 
food in childhood from permanently stunting the growth of nearly 2 
million children. In FY2016, the initiative helped nearly 11 million 
farmers in developing countries adopt new technologies like high-
yielding seeds. As a result, these farmers made more than $900 million 
in new agricultural sales and stimulated nearly $630 million in new 
agricultural loans.
    With farming accounting for nearly 55 percent of total employment 
in places like sub-Saharan Africa--and the agricultural sector 
representing the single largest employer of the labor force in lower 
middle-income countries--empowering smallholder farmers in developing 
countries is the most effective way to reduce hunger and poverty, build 
resilience, generate inclusive economic growth, and achieve long-term 
stability.
    Actions taken now to increase agricultural sector jobs can provide 
economic opportunity and stability for those unemployed youths while 
helping to feed people. A recent report by the Chicago Council on 
Global Affairs identifies agriculture development as the core essential 
for providing greater food security, economic growth, and population 
well-being. Repeatedly, history has taught us that a strong 
agricultural sector is an unquestionable requirement for inclusive and 
sustainable growth, broad-based development progress, and long-term 
stability.
    In summary, a food security strategy is critical to our overall 
national security. While many challenges face us, America and our 
global partners have the capability to meet those challenges by 
employing all the elements of our national power to include diplomatic, 
developmental, economic, and, yes, military when required; a balanced, 
thoughtful melding of soft and hard power. Now is the time to take a 
long-term approach, make the needed changes in agencies and 
organizations supporting our overseas engagements, address climate 
change, and support and sustain our commitment to global food security. 
By doing so, we can help countries transition from aid-recipients to 
full-fledged partners, moving toward the day when they will no longer 
depend on foreign aid.
    In my view, failure to act will jeopardize the progress we have 
made, risk continual recurring food crises that grow terrorists, and 
allow development of conflicts that will eventually require deploying 
the men and women of our military.
    Thank you again to the Chairman, Ranking Member and the Committee 
for inviting me to speak. I look forward to your questions.

    Senator Young. Thank you, General. I think we are breaking 
through on this issue from the national security standpoint, 
and we are grateful for your leadership.
    Ms. Nunn.

   STATEMENT OF MICHELLE NUNN, PRESIDENT AND CHIEF EXECUTIVE 
                 OFFICER, CARE USA, ATLANTA, GA

    Ms. Nunn. Chairman Young and Ranking Member Merkley, thank 
you for the opportunity to be here today and to be with this 
terrific panel.
    I represent CARE, which traces its roots back to 1945 when 
a small group of Americans invented the original CARE packages, 
food rations for starving survivors of World War II in Europe. 
And today the CARE package is an icon of American generosity. 
It is inspiring to consider the compassion that let us not only 
support our allies but also our former enemies. And it was part 
of a multi-pronged effort that ensured a stable and prosperous 
Europe as a critical U.S. ally and partner.
    From the delivery of those first CARE packages, CARE's work 
has evolved and now stretches across 94 countries, reaching 
more than 62 million people annually.
    In addition to emergency aid, our programs now focus on 
long-term development and building resilience among populations 
to permanently lift people out of poverty. We prioritize the 
empowerment of women and girls in our work because we know they 
are disproportionately affected by poverty, and they are the 
key to overcoming it.
    In my testimony I want to share why we invest in women, the 
proven impact of U.S. investments, the consequences of a world 
without U.S. leadership, and a path forward.
    So, why women? When food is in short supply, women and 
girls are often the most impacted and are regularly the last to 
eat. Girls' poor access to food results in stunting and much 
worse during pregnancy. In times of crisis, girls are the first 
to be pulled out of school to help with household chores or 
earning an income. Also in times of drought, famine, or natural 
disaster, families often seek to safeguard their daughters by 
placing them in child marriages, which, of course, dramatically 
diminishes their future. Finally, women are often denied the 
same basic rights as men, such as owning land or having access 
to inputs as small-holder farmers, which compounds their 
vulnerability and diminishes the overall security of families.
    But while women are the most impacted, they also have the 
capacity to create disproportionate change. We know, for 
instance, that if women had the same access to resources as 
men, there would be 150 million fewer hungry people in the 
world. At CARE, we have seen how building food security and 
prioritizing women's empowerment can transform communities.
    In Ethiopia last year, just as some areas of the country 
began to recover, they were hit again by a devastating drought. 
Yet famine was never declared. This was not only because the 
U.S. leveraged emergency assistance but also because of 
investments in long-term resilience, such as those included in 
the Feed the Future Initiative. These resilience programs, 
including CARE's GRAD program in Ethiopia, improved 
participants' skills, provided financial literacy, and 
diversified livelihoods. We have seen tremendous results. For 
instance, within 5 years, annual household income increased by 
87 percent, and 62 percent of GRAD families have graduated off 
government assistance altogether. These results show that we 
can break the devastating cycles of extreme food insecurity 
through long-term investments in resilience and capacity 
building, and this is the best spirit of America's leadership.
    Yet despite these clear and well-documented results, the 
President's latest budget proposes severe cuts to programs that 
build resilience, including Feed the Future. These cuts could 
translate to more than 5 million farmers losing access to 
programs that help them grow their way out of poverty.
    It does not take much to imagine what will occur should 
these proposals become a reality. Without resilience programs 
droughts, floods, and climate disruptions will wreak havoc on 
small farms. It will drive up food insecurity and poverty. We 
know that these vulnerable populations are most at risk of 
falling into crisis and instability.
    There is another path forward, and it is imperative that we 
take it. With last year's passage of the Fiscal Year 2017 
omnibus, Congress made clear that the U.S. will continue to 
lead in responding to crisis and in the fight to end extreme 
poverty. And the work being done through Feed the Future shows 
us that we can end poverty for good.
    Congress can continue their commitment by reauthorizing the 
Global Food Security Act, which is set to expire this year. The 
Global Food Security Act assures that the great work being done 
through Feed the Future and the U.S. Government's Global Food 
Security Strategy continues.
    I look forward to your questions, and thank you very much 
for the opportunity.
    [The prepared statement of Ms. Nunn follows:]

                  Prepared Statement of Michelle Nunn

    Chairman Young, Ranking Member Merkley, and members of the 
Subcommittee, good afternoon and thank you for the opportunity to 
testify today.
    CARE traces its roots back to 1945, when a small group of American 
citizens galvanized 22 organizations to join forces to rush emergency 
food rations to the starving survivors of World War II in Europe. They 
invented the concept of the ``CARE Package'' --an icon of American 
generosity. It is hard to imagine both the compassion and 
farsightedness that called upon the American public to invest not only 
in our hungry former allies but also our hungry former enemies. It was 
a part of a multi-pronged effort that ensured a stable, secure, and 
prosperous Europe as a critical U.S. ally and partner.
    From the delivery of those first CARE packages, our work has 
evolved and now stretches across 94 countries, reaching more than 62 
million people in 2017. In addition to humanitarian response, our 
programs now focus on long-term development and building resilience 
among populations to permanently lift people out of poverty. We 
prioritize the empowerment of women and girls in our work because we 
know they are both disproportionately affected by poverty, and they are 
the key to overcoming poverty and unlocking transformation within 
communities.
                               why women
    In countries throughout the world, when food is in short supply and 
families experience times of need, women and girls are often the most 
impacted. They are regularly the last to eat, jeopardizing their 
health, nutrition, and well-being. Girls' poor access to food is 
responsible for stunting and other forms of malnourishment that impact 
their health and ability to participate in other endeavors, such as 
education or livelihoods. Pregnant women and their babies, when poorly 
nourished, are at significantly higher risk.
    In times of crisis, girls are the first to be pulled out of school 
to help with household chores, feed the family, or earning income, 
which impedes them from reaching their full potential. Also, in times 
of drought, famine, or natural disaster, families may seek to help 
their daughters avoid hardship by placing them into child marriages 
with wealthier or more secure men. Additionally, women are often denied 
the same basic rights as men, such as the right to own land or access 
inputs as smallholder farmers, which all compounds their vulnerability 
and diminishes the security of their families. At the same time, we 
know that if women had access to the same resources as men, there would 
be 150 million fewer hungry people in the world.
                     the impact of u.s. investments
    U.S. Government investments and our work on the ground have given 
us a firsthand look at how building food security and prioritizing 
women's empowerment can transform communities and the trajectory of 
nations. Take Ethiopia--last year, just as some areas of the country 
began to recover from the most devastating drought in 50 years, another 
drought hit. Yet famine was never declared. This is not only because of 
the actions of the Ethiopian government and the U.S.'s ability to 
leverage emergency assistance, which was delivered in time to prevent 
the worst consequences, but also in large part due to investments in 
long-term resilience programs, such as those included in the Feed the 
Future Initiative.
    These resilience programs helped local Ethiopian farmers increase 
their yields and incomes, created fortified grains to combat 
malnutrition in children, and expanded agricultural businesses to 
create job opportunities. A USAID study found that households in 
communities reached by these resilience programs were able to maintain 
their levels of food security in the face of drought, whereas 
households in communities outside the program areas experienced a 30 
percent decline in food security.
    CARE's GRAD program in Ethiopia worked to improve participants' 
skills, provide financial literacy training, and diversified 
livelihoods. Within 5 years, annual household income increased by 87 
percent, and 62 percent of GRAD families had graduated off government 
assistance. 90 percent of women participating in GRAD reported having 
an increased role in decision-making, and 61 percent of women reported 
greater equality in their homes.
    From 2012 to 2016, another CARE program in Ethiopia, called 
LINKAGES, focused on food security, women's empowerment, and access to 
markets. Farmers earned a $3.27 return for every dollar invested. At 
the end of the 4-year program, families increased their annual income 
by 80 percent, and 66 percent of families in the program were able to 
graduate off food assistance.
    These results show that we have the opportunity to break 
devastating cycles of extreme food insecurity through long-term 
investments in building the capacity and resilience of local 
communities. This is in the best of the spirit of American leadership, 
and it also generates economic benefits, as we have seen with countries 
like South Korea--once a war-torn nation and aid recipient, their 
annual trade with the U.S. now totals more than $43 billion.
    South Sudan offers a different type of example. With a famine 
declared in February 2017, and the conflict entering its fifth year in 
2018, 7 million people, or approximately half of the population, are in 
urgent need of food assistance. This declaration prompted Congress to 
generously and appropriately provide almost $1 billion in supplemental 
funding to South Sudan and similarly affected countries--funding that 
played a key part in rolling back famine 4 months after it was 
declared.
    The United States has always been a catalytic leader in responding 
to crises and helping populations in need. Our actions and responses 
encourage other countries to act and provide their own support. We were 
one of the first to respond to Ethiopia's drought 2 years ago, which 
mobilized other donors and was instrumental in preventing a famine 
declaration. In the Democratic Republic of the Congo, the U.S.'s 
declaration of a disaster in the Kasai regions spurred the U.N. and 
other governments to elevate the level of their responses. We see 
consistently that when the U.S. leads, other countries follow.
                   proposals from the administration
    Despite these clear and well-documented results, the President's 
budgets for FY18 and FY19 proposed eliminating programs that provide 
emergency food aid, such as Food for Peace, and severe cuts for 
programs that build resilience, including Feed the Future.
    In fiscal year 2016, almost 11 million farmers were reached with 
improved technologies, management practices, and increased market 
access. A funding cut of 48 percent to Feed the Future programs, as 
proposed by the Administration, could translate to approximately 5.28 
million farmers being cut from or losing access to programs that help 
them grow their way out of poverty and decrease dependency.
    Also in fiscal year 2016, approximately 56.1 million people were 
reached with emergency food aid through the Emergency Food Security 
Program (EFSP) and through emergency Food for Peace programming. Under 
the Administration's proposal to eliminate Title II food aid and only 
provide $1.5 billion for the EFSP, approximately 20 million people in 
crisis could lose access to lifesaving food assistance as compared to 
fiscal year 2016.
                    a world without u.s. leadership
    It doesn't take much to imagine the local, regional, and global 
impacts should these cuts become a reality. In 2015, the regional needs 
emanating from the conflict in Syria rapidly outpaced available 
resources. The World Food Programme was forced to halt aid to 230,000 
Syrian refugees in Jordan living outside of camps. Those who were not 
wholly cut off from WFP assistance received $7 per person per month. 
Without the ability to meet the most basic needs of their families, 
countless Syrian refugees found their way to Turkey, climbed into 
rafts, crossed the Mediterranean, and then walked from Greece to 
Germany and other European destinations. Hundreds of thousands of 
Syrians arrived that year in Germany and applied for asylum, with the 
simple hope of finding a way to support their family's most basic 
needs.
                             a path forward
    But it doesn't have to be this way. With last year's passage of the 
FY17 omnibus, Congress made clear that the U.S. will continue to lead 
in responding to crises and in the fight to end poverty. And the work 
being done through Feed the Future and programs like LINKAGES show us 
that we can end poverty for good.
    Congress can continue their commitment by reauthorizing the Global 
Food Security Act (GFSA), which is set to expire this year. The GFSA 
assures that the great work being done through Feed the Future and the 
U.S. government's Global Food Security Strategy continues. At CARE, we 
stand ready and willing to continue our partnership with the U.S. 
government to end global hunger and poverty.

    Senator Young. Well, thank you, Ms. Nunn.
    I am going to request that our witnesses answer my 
questions over the next few minutes fairly concisely in light 
of time constraints.
    Dr. Sova, I want to congratulate you on the publication of 
your World Food Programme USA report, ``Winning the Peace: 
Hunger and Instability.'' You sought to examine the link 
between food insecurity on the one hand and global instability 
on the other, and you found a very direct link. Surveying all 
the research, 53 peer-reviewed journal articles----
    Dr. Sova. That is correct.
    Senator Young. --you discuss the reasons why food-insecure 
people sometimes resort to violence or other forms of social 
unrest, identifying several causal mechanisms in the scholarly 
literature, including grievance, economic, or governance 
motivations.
    General Castellaw, does Dr. Sova's research, drawing that 
linkage between food insecurity on the one hand and global 
instability on the other, reflect your real-world experience as 
a United States Marine?
    General Castellaw. Sir, it certainly does. Whether we are 
talking about what we saw in the Horn of Africa, what we have 
seen in Syria, what is developing in Venezuela, all of it shows 
at least one of the contributing factors is food insecurity. I 
will always remember being in Southern Africa, watching men and 
women scavenge on piles of garbage to find stuff to feed their 
family. The looks of depression and hopelessness are what 
drives instability.
    Senator Young. Ms. Nunn, when combined with the moral 
imperative, from your perspective what are the policy 
implications of this clear link between food insecurity and 
instability or violence?
    Ms. Nunn. We absolutely also experience and see this 
correlation between food insecurity and instability on the 
ground in the countries where we work. In particular, what we 
see is how displacement due to food insecurity is often a 
trigger for further insecurity that is destabilizing and must 
be addressed in order to really ensure stability.
    Senator Young. And a softball here for either Ms. Nunn or 
the General. What are the implications of these conclusions for 
the international affairs budget and for the food security 
programs within it?
    General Castellaw. Terrible. What we have to do is make 
sure they are fully funded in order to reduce the opportunity 
that may occur later to have to introduce our forces. It is 
absolutely essential.
    Ms. Nunn. I think we just have to ensure--and we know what 
works. We have evidence that if we invest early in resilience, 
that we can prevent not only human suffering but also future 
conflict.
    Senator Young. So, I cannot resist, General Castellaw. As 
the Chairman's prerogative my time is winding down, but I am 
going to shoehorn one more question in. Just give me your 
unadulterated Marine Corps language, a sense of what the impact 
would be on our nation's security, as we conventionally define 
it, if we have a powerful and well-resourced military without 
equally effective diplomatic and developing capabilities.
    General Castellaw. I think it is pretty clear, those of us 
that have spent our lives in defense of our country understand 
that it is not just about guns and bullets. It is also the 
human factor. And when we are talking about a situation where 
we have the youth bulge, we have people who are hungry, the 
instability that comes from it, all the bullets in the world 
are not going to be able to deal with that.
    Senator Young. Senator Merkley.
    Senator Merkley. General, in that context, we do not have 
nominees for some places like Somalia and DRC, the Democratic 
Republic of Congo, that are very complex, very riven by both 
food insecurity and strife. Would you recommend to the 
Administration that they forward nominees for us to consider 
here?
    General Castellaw. One of the privileges that I have had is 
to work with individuals from other agencies, including the 
Department of State, as well as other agencies. What we need to 
ensure is that we give them the resources, that we provide the 
good people, make their ability to act agile with those 
resources. So we have to have those people in place.
    Senator Merkley. Thank you. You wrote in a U.S. News 
editorial in February, the Blue Helmet piece, that keeping 
operations are more affordable and sometimes more effective as 
compared to the commitment of U.S. Armed Forces to conflict 
areas.
    The GAO, Government Accounting Office, did a study, and 
they found that U.S. contributions to peacekeeping operations 
in the Central African Republic is about an eighth of what it 
would cost for us to deploy the U.S. military for the same 
purpose.
    So we have a proposed budget cut of $710 million to 
international peacekeeping operations. In your opinion, should 
we continue to maintain our current investment, or possibly 
increase it?
    General Castellaw. We need to maintain it. I have been to 
the Central African Republic. I have been among those U.N. 
peacekeepers. They are capable. They need the resources to do 
it.
    Again, I go back to the fact that our most precious 
resource is the blood of the men and women who serve. When we 
can get others to go and share the burden, then we reduce the 
need to send our sons and daughters.
    Senator Merkley. I am just going to ask one last question 
because we are in the middle of a vote right now, assuming it 
started.
    Senator Young. It started.
    Senator Merkley. Ms. Nunn, thank you so much for your 
leadership of CARE. You mentioned addressing some of the 
challenges for women. One of the programs that you have 
supported has been assisting women through their pregnancies 
and the early stages of childhood to give those children a good 
start in life. There are many other challenges that can come 
beyond that, but have you found that to be an effective 
strategy that we should continue to invest in?
    Ms. Nunn. We know that investing in the first thousand days 
of a child's life, and ensuring that mothers have antenatal and 
postnatal care, is critical to child survival and also to their 
thriving and success. We also know that stunting can have long-
term implications not only on the child but also on the 
capacity for economies and nations to thrive.
    So these are very smart, low-cost investments that have 
tremendous return.
    Senator Merkley. Well, I love that way of framing it, the 
first thousand days. I was trying to remember what the title 
was, and that was it. That certainly gets kids launched into 
life and supports the mothers, and thank you for the tremendous 
work that CARE is doing.
    Ms. Nunn. Thank you.
    Senator Young. Well, there are no further questions from 
the panel.
    I want to thank all of our witnesses for being here today. 
I want to thank you for your leadership, and we look forward to 
continued dialogue so that we can improve existing programs, 
make sure that those programs which are effective remain 
effective, and we prevent this linkage which has been 
identified from groundbreaking research between food insecurity 
on the one hand and instability on the other.
    So, thank you all. Have a great day.
    I will add that, for the information of members, the record 
will remain open until the close of business on Friday, 
including for members to submit questions for the record.
    This hearing is adjourned.
    [Whereupon, at 3:56 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


         Responses of The Honorable David Beasley to Questions 
                    Submitted by Senator Todd Young

    Question. In your prepared testimony, you note that you have 
visited Yemen. The World Food Programme is active there and has helped 
feed millions. Can you provide an update on the humanitarian situation 
in Yemen, has humanitarian access improved, and what challenges does 
WFP continue to confront there?

    Answer. The war that began in March 2015 has destroyed people's 
livelihoods and the ability to purchase food, making it difficult for 
many Yemenis to meet minimal food needs. Food insecurity levels 
continue to rise, with a record 17.8 million Yemenis (61 percent of the 
population) estimated to be food insecure. Out of these, approximately 
8.4 million people (29 percent of the population) are estimated to be 
severely food insecure. That's up from 6.8 million in 2017, a worrying 
24 percent increase.
    WFP food assistance has prevented Yemen from falling into a full 
famine. We are now scaling up assistance to eventually provide help to 
7.6 million people per month. But the scale of food insecurity now 
means a significant portion of the Yemeni population has virtually 
exhausted all coping strategies, putting them on the brink of famine. 
Yemen is also grappling with outbreaks of cholera--more than 1 million 
suspected cases in the largest-ever outbreak in a single year--and 
diphtheria.
    Moreover, since the blockade, there have been no commercial fuel 
tankers allowed to berth and discharge in the Red Sea northern ports of 
Yemen. The lack of fuel has become a major risk factor for humanitarian 
operations and the delivery of basic services.
    WFP is also facing a funding shortfall. For April-September 2018, 
the emergency operation's shortfall is USD $364 million. This means WFP 
must prioritize resources, such as providing full rations to only the 
areas where the most food-insecure people live. Under this mechanism, 
about half of beneficiaries are receiving 60 percent rations.

    Question. In your prepared testimony, you note that Yemen, South 
Sudan, northeast Nigeria, and Somalia are filled with hungry people 
because of man-made conflict. While we will continue to do all we can 
in the meantime, would you agree that significant and durable 
improvement in the humanitarian crisis in Yemen will require an end to 
the civil war?

    Answer. The short answer is yes. We simply cannot completely end 
the humanitarian crisis in Yemen without ending the war.
    It is abundantly clear--not just in Yemen, but around the world--
that conflict is one of the main causes of food insecurity and hunger 
globally today, forcing millions of people to abandon their land, homes 
and jobs and putting them at risk of hunger or even famine. Elsewhere 
in the world, where there is more stability and peace, countries are 
making significant progress toward reaching Zero Hunger--including in 
some of the world's poorest and least developed nations. So we know 
that progress is possible, and we are working to find ways to 
accelerate and amplify that progress. But if conflict continues, it 
will reverse progress, making it truly impossible to reach our goals.
    At the same time, there is a growing understanding that hunger may 
contribute to conflict when coupled with poverty, unemployment or 
economic hardship. Food is foundational. Food shortages deepen existing 
fault-lines and fuel longstanding grievances. Addressing food 
insecurity is therefore paramount in the pursuit of stability and 
peace. If we want to end hunger, we have to end conflict. But the 
reverse is also true--if we truly want to end conflict, we have to 
fight hunger at the same time.

    Question. In your prepared testimony, you argued that one of the 
biggest challenges you confront is the ``siloed nature'' of donors. You 
note that the World Food Programme is ``trying to break down barriers 
between donor countries, so money that comes to WFP can encourage, not 
discourage, long-term strategic planning and execution.'' Can you 
further describe these barriers between donor countries? How can we 
encourage better coordination among donors?

    Answer. We will never truly beat back hunger unless we can build 
long-term resilience in countries facing severe, chronic food 
insecurity. To do that, we design and develop programs that are 
multiyear, multisectoral and multipartner. Through this approach, we 
are achieving success, for example in Niger, where we work with 
multiple partners to deliver an integrated package of support across 
different sectors for a sustained time period. The results are clear: 
Agriculture production in areas where we are working on these programs 
has been doubled and in some cases tripled, young men from poor 
families are migrating less or even not at all, and land vegetation is 
increasing dramatically. But donor approaches--too often divided into 
silos of ``development'' and ``humanitarian'' sectors, and/or focused 
on shorter-term project cycles--have not evolved to support this kind 
of integrated programing, where investment in humanitarian support, in 
addition to alleviating immediate suffering and hardship, also works 
toward longer-term development objectives. Some of our donors are doing 
their own resilience programs in isolation--and not achieving the 
results we are seeing. Funding mechanisms should encourage long-term 
and multi-partner approaches, rather than pursuing goals in isolation.

    Question. In your prepared testimony you note that ``More than 90 
percent of the money [WFP receives] is earmarked, not just for specific 
countries, but specific activities within them.'' While I know WFP is 
grateful for the donations, how could WFP make better use of the money 
and better address food insecurity if there were fewer restrictions on 
how the money is spent? How can we work together to encourage 
commonsense reforms in this area and encourage more donors to follow 
America's lead in flexible funding for WFP?

    Answer. When contributions have fewer restrictions, WFP has greater 
ability to respond rapidly and maximize its efforts for the largest 
short- and long-term impact. Flexible funds enable proper planning, 
including investing in early warning and emergency preparedness systems 
that enable a more rapid and cost-efficient response. Also, with more 
predictable funding that includes fewer restrictions, operations are 
not subjected to ``start-stop'' resource flows and food procurement 
comes with lower transaction costs. These funds also contribute to 
higher cost efficiency in areas such as staffing contracts and partner 
agreements. The United States is one of the leading donors committed to 
the principles of what is called the Grand Bargain, which was signed at 
the World Humanitarian Summit in 2016. In that agreement, donors 
committed to progressively reduce earmarking, with an aim of achieving 
a global target of 30 percent of humanitarian funding with fewer 
restrictions by the year 2020.

    Question. In your prepared testimony, you made clear that we must 
break the cycle between hunger and conflict. You write, ``We must work 
together on a pro-active, strategic plan that creates stability and 
security.'' Later, you write, ``What is needed is a properly funded, 
coordinated strategic plan--one that involves work from other U.N. 
agencies, NGOs and national governments alike.'' How can we play a 
constructive role in encouraging the development of this type of 
strategic plan that you think is necessary? Do you have any specific 
suggestions?

    Answer. Continued support and flexibility from the United States 
toward this type of approach would be most welcome. We need to 
demonstrate that, working together, the international community can 
break that cycle through a focused effort, where a multipartner team 
focuses on one specific area with a multipronged, multiyear program 
that receives significant funding from public and private sectors. This 
approach would require both the commitment to a coordinated and well-
resourced multi-sector program to tackle humanitarian and development 
challenges, and also the sustained political engagement needed to end 
the conflict or insecurity at the root of that crisis. The program 
should be designed so it achieves the ultimate aim: the end of need for 
major international humanitarian assistance in that locale. The world 
is so very distracted these days, and I believe that in our 
distractions, we end up doing too little in too many places. But with a 
laser-targeted, strategically focused effort, maybe even in just one 
country, we could truly prove what beats back hunger, what creates 
stability, what saves lives and changes lives.
                                 ______
                                 

              Responses of Mr. Matthew Nims to Questions 
                    Submitted by Senator Todd Young

    Question. In your prepared testimony, you discussed the 
humanitarian situation in Burma and Bangladesh with respect to the 
Rohingya. What are your key humanitarian concerns for the Rohingya?
    I also note in your prepared testimony you wrote, ``Lack of 
humanitarian access and ongoing population movement have left an 
unknown number of people in need of immediate food assistance in 
Rakhine State.'' It is noteworthy that USAID doesn't know how many are 
in need in Rakhine State and it underscores your point about 
humanitarian access. Can you speak to the lack of humanitarian access 
in Rakhine State, and what is your message to the Burmese government 
regarding humanitarian access?

    Answer. The United States' priorities for the humanitarian crisis 
in Burma are ensuring access for humanitarian partners so they can 
provide life-saving assistance to those who need it; preventing and 
responding to protection violations, such as gender-based violence; and 
promoting accountability.
    While USAID partners in Burma continue to provide nutrition, 
protection, health, food, and water, sanitation and hygiene services 
wherever possible, humanitarian access in northern Rakhine State 
remains unacceptably restricted. These restrictions impede USAID's 
partners from adequately assessing the needs and responding 
appropriately. USAID strongly encourages the Government of Burma to 
provide humanitarian actors immediate, unfettered access in order to 
assess needs and appropriately respond in Rakhine, especially in 
northern Rakhine State.
    In addition to supporting vulnerable populations inside Burma, 
USAID is also assisting the influx of approximately 671,000 Rohingya 
who have arrived in Bangladesh since August 25, in addition to 
assisting the estimated 303,070 Rohingya who were already in country. 
This population is highly vulnerable and living in conditions well 
below humanitarian standards. Malnutrition, overcrowding, disease, poor 
sanitation, trafficking, and protection issues are of particular 
concern.
    In addition, the U.N. estimates that up to 200,000 refugees in 
Cox's Bazar are living in flood and landslide-prone areas, at risk of 
losing shelter, loss of access to life-saving services, and loss of 
life during the upcoming April-October monsoon and cyclone seasons. 
Additional assistance, including decongestion of camps and relocation 
of vulnerable households, is urgently needed to safeguard lives and 
infrastructure during this precarious timeframe.
    The magnitude of the crisis has also placed an enormous burden on 
Bangladeshi host communities in Cox's Bazar. In some areas where host 
community populations are now far outnumbered by refugees, they are 
facing increased competition for labor and other livelihoods 
opportunities, while seeing market prices increase and wages decrease.

    Question. In your prepared testimony, you mention Yemen, continuing 
to call it ``by far the largest food security emergency in the world.'' 
Can you provide an update on the humanitarian situation in Yemen? Would 
you agree that we will not make significant and durable progress in the 
humanitarian crisis in Yemen if we cannot bring the civil war to a 
close? In order to bring that about, would you agree both sides in the 
civil war must come to the negotiating table and make concessions?

    Answer. The humanitarian situation in Yemen remains dire. More than 
75 percent of the population--22 million people--require humanitarian 
assistance and nearly 18 million people are severely food insecure. 
Despite ongoing interventions, the number of people requiring 
humanitarian assistance increased by nearly 3.5 million in the past 
year as a result of escalating violence, port restrictions, and the 
resultant deterioration of food security conditions and basic service 
provision.
    Import levels at Yemen's Red Sea ports have yet to recover 
following November 2017 Coalition-imposed closures, as shipping 
companies remain concerned about the potential reinstatement of port 
restrictions. The risk of famine remains persistent in areas heavily 
reliant on Red Sea imports. Decreased purchasing power, rising staple 
food and fuel prices, and the continued depreciation of the Yemeni 
riyal have made basic food commodities too expensive for many food-
insecure households, prompting some to resort to negative coping 
mechanisms, such as forced marriage. Many Yemenis will likely continue 
to face Crisis-level food insecurity in 2018.
    In addition, Yemen's incapacitated health system and lack of 
routine vaccinations are driving the resurgence of previously contained 
diseases. Since April 2017, Yemen has been impacted by the world's 
largest cholera outbreak, which has resulted in nearly 1.1 million 
suspected cases and 2,300 deaths. A diphtheria outbreak that began in 
August 2017 has now affected nearly 1,400 people.
    Only an end to the conflict will end the humanitarian crisis. We 
stand with the humanitarian community in calling on all parties to the 
conflict to safeguard civilians and aid workers, minimize casualties, 
and bring an end to this devastating conflict.
    We welcome the arrival of the new U.N. Special Envoy for Yemen 
Martin Griffiths, and believe the international community must give 
Special Envoy Griffiths a chance to work toward political progress. We 
echo U.N. Secretary-General Guterres' statement that a negotiated 
political settlement through inclusive intra-Yemeni dialogue is the 
only way to end the conflict and address the ongoing humanitarian 
crisis.

    Question. In addition to any necessary delays associated with the 
U.N. Verification and Inspection Mechanism for Yemen (UNVIM), does the 
Saudi government (or the Evacuation and Humanitarian Operation Cell 
(EHOC)) continue to impose additional delays on vessels carrying vital 
cargo (including food, fuel, and medicine) into Yemen's Red Sea Ports? 
What kind of additional delays are being caused by the Saudis, and what 
can be done to reduce or eliminate those unnecessary delays?

    Answer. UNVIM commits to processing all clearance requests within 
48 hours of receipt. During February, UNVIM clearances took up to 36 
hours. Because shippers typically submit clearance requests en route to 
but prior to arriving at port, this processing time does not 
necessarily translate into any delays for the ship. However, the Saudi-
led Coalition continues to conduct its own clearance process through 
EHOC. During the week of March 28, this clearance process took an 
additional 55 hours on top of the UNVIM process. In addition, there are 
sometimes delays in EHOC communicating the clearance to the Saudi-led 
Coalition ships controlling the holding area, and some ships face 
delays receiving Coalition permission leaving port.
    Many of these delays can be reduced through better coordination 
between UNVIM and EHOC and more efficient EHOC communications 
processes. The Saudi-led Coalition, UNVIM, and U.N. OCHA have improved 
their coordination in recent weeks and were able to identify concrete 
steps the Coalition can take to reduce delays. The Coalition also 
committed to processing clearances with 78 hours. While not all of 
these steps have been implemented, we are seeing signs of progress; 
during the week of March 14, the EHOC clearance process took 92.5 
hours, an improvement from the 55 hours it took the week of March 28. 
Unfortunately, this has not yet translated into an increase in traffic 
to Hudaydah and Saleef ports, where food imports in particular remain 
low.

    Question. In your prepared testimony, you note that Jordan is one 
of several countries that is hosting an enormous number of refugees 
from Syria. Jordan is a close and important ally, and Amman is helping 
the international community (providing a global common good) in hosting 
these refugees. Can you describe the refugee situation in Jordan, the 
resulting strain on the government and society there, what we are doing 
to help, and what more we can do to help?

    Answer. Jordan hosts nearly 660,000 UNHCR-registered Syrian 
refugees. The Government of Jordan (GOJ) estimates the number of 
Syrians in Jordan is as high as 1.4 million.
    USAID supports the GOJ to address these issues and to build more 
resilient host communities, in addition to providing significant 
humanitarian resources for refugees which has a secondary positive 
impact on the local economies of host communities. USAID has reoriented 
existing programs to account for the refugee situation and has 
dedicated additional funding to help the GOJ focus on the stresses 
caused by the Syria crisis.
    Since the beginning of the crisis, the United States has provided 
nearly $1.1 billion in humanitarian assistance through Department of 
State and USAID to support Syrian refugees in Jordan. This includes 
support to activities like the World Food Programme's electronic 
voucher program, which has not only provided life-saving food 
assistance to 500,000 vulnerable refugees but has also injected over 
$581 million into Jordan's economy.
    USAID assistance in economic growth, democratic governance, 
education, water, and health supports the GOJ and host communities in 
areas that face the greatest challenges in responding to the influx of 
refugees. USAID strengthens economic stability in host communities in 
northern Jordan by providing training for Jordanians with micro- and 
small-sized enterprises and supporting their access to finance. USAID 
also supports the GOJ in its efforts to decentralize, strengthening the 
capacity of municipal governments to identify and respond to the needs 
of their communities.
    To ensure access to quality education for Jordanian and Syrian 
students alike, USAID is expanding, building, and renovating schools to 
accommodate additional students and training teachers. To address the 
psychosocial and remedial needs of students returning to school after 
fleeing conflict, USAID has trained over 4,000 teachers in psychosocial 
support. To expand access to quality health services for Jordanians and 
Syrians, USAID is financing and renovating health facilities, such as 
the expansion of the emergency department of the largest public 
hospital in Jordan, which serves 50,000 emergency patients per month. 
USAID addresses the dire water needs of the country, providing access 
to clean, safe water by supporting the construction of 27 of Jordan's 
most critical water supply facilities and networks, and through the 
construction and rehabilitation of eight wastewater treatment 
facilities.
    On February 14, 2018, the United States signed a new 5-year (FY 
2018-FY 2022), non-binding Memorandum of Understanding (MOU) with the 
GOJ, which indicates our support for providing a minimum of $1.275 
billion per year in U.S. bilateral foreign assistance to Jordan.

    Question. In your prepared testimony, you note that according to 
the Aid Worker Security Database, 131 aid workers died in 2017, 
primarily in conflict areas. Syria and South Sudan--both protracted 
conflicts--were the deadliest locations (with 48 and 28 aid worker 
deaths, respectively). Can you discuss the targeting of aid workers in 
Syria and South Sudan? In both countries, who is primarily responsible 
for targeting aid workers?

    Answer. In Syria, both targeted and indiscriminate violence 
continues to affect humanitarian and stabilization workers and 
facilities, particularly in opposition-controlled areas. The Syrian 
Arab Republic Government (SARG) and the Government of the Russian 
Federation have consistently conducted airstrikes which have impacted 
civilian infrastructure and humanitarian missions, most notably medical 
facilities. There has been a pattern of SARG attacks against health 
workers dating back to the earliest days of the conflict. At least 12 
aid workers have been killed thus far in 2018 in Syria.
    Aid workers in South Sudan continue to risk their lives to deliver 
humanitarian assistance, battling harassment, threats, intimidation, 
violent attacks, and expulsion. Attacks against relief workers are 
rarely an attempt to stop the delivery of humanitarian assistance, but 
are either the result of the broader violence between armed groups that 
continues to plague most parts of South Sudan, or due to rising 
criminality as a result of economic collapse. Non-governmental 
organizations and their employees are often seen as a source of money, 
food, or equipment and commodities that can be sold or consumed in an 
environment where nearly half of the population faces severe food 
insecurity and the economy has collapsed. Attacks against aid workers 
occur in both government- and opposition-controlled areas and in a 
context of impunity. Three aid workers have been killed thus far in 
2018 in South Sudan, all in the midst of wider attacks.
    Targeted and indiscriminate violence against aid workers in Syria 
and South Sudan effectively curtails access for humanitarian actors to 
respond to the populations' needs. Aid actors in both contexts must 
constantly think about mitigation measures to keep their facilities, 
staff and beneficiaries safe from attacks due to the lack of 
protection. The rampant violence and dangerous environment for 
humanitarian personnel and assets has deprived the Syrian and South 
Sudanese populations from safely seeking access to aid amidst the dire 
humanitarian situation.

                                  <all>
</pre></body></html>
